                  THE NO SUSPECT CASEWORK
               DNA BACKLOG REDUCTION PROGRAM

                           EXECUTIVE SUMMARY


      Forensic DNA evidence has tremendous potential to improve the
criminal justice system. Use of DNA evidence has solved numerous criminal
cases that could not have been solved with traditional law enforcement
techniques, and in a number of cases has exonerated persons charged with
or convicted of crimes they did not commit. However, DNA currently is not
being used to its full potential due to several factors, including a significant
backlog of cases awaiting analysis in state and local laboratories and at law
enforcement agencies across the country. A report submitted to Congress
by the Attorney General in April 2004 estimated that over 540,000 criminal
cases with biological evidence were awaiting DNA testing in state and local
laboratories and at law enforcement agencies.1 Those cases include 52,000
homicides and 169,000 sexual assaults.

       To aid in reducing this casework backlog, the Department of Justice,
Office of Justice Programs (OJP), National Institute of Justice (NIJ),
developed and is administering the No Suspect Casework DNA Backlog
Reduction Program (Program), which provides funding to state laboratories.
The purpose of this funding is to help the state laboratories identify, collect,
and analyze DNA samples from evidence collected in cases where no suspect
has been identified or in which the original suspect has been eliminated.
Our audit examined OJP’s Program oversight and administration, Program
participant’s compliance with requirements, and the allowability of costs
charged to the Program.


Background

      The Program’s mission is “to increase the capacity of state laboratories
to process and analyze crime-scene DNA in cases in which there are no
known suspects, either through in-house capacity building or by outsourcing
to accredited private [contractor] laboratories.” The Program was


      1
          The report, National Forensic DNA Study Report, was the result of a study
conducted by Washington State University and Smith Alling Lane, a Tacoma, Washington,
law firm.
authorized under the DNA Analysis Backlog Elimination Act of 2000, and was
initiated with a Solicitation for applications to be submitted by
September 2001. Due primarily to the events surrounding September 11,
2001, the Solicitation deadline was extended into FY 2002. Therefore, while
the first year of the Program technically was FY 2001, the first grant
applications were received and reviewed in FY 2002, and the first awards
were issued toward the end of that fiscal year.2 OJP awarded approximately
$28.5 million in this first year of the Program.

       A total of 25 states received awards in the Program’s first year (see
page 5 for the complete listing of the grantees and award amounts). In
many cases, these grantees teamed with co-grantees in their state (such as
local laboratories or law enforcement agencies that received funding from
the award to the Program grantee).

      Program grantees received funding for the analysis of over 24,700
no-suspect DNA cases in the Program’s first year. Each award was to be
used for the processing and DNA analysis of no-suspect cases, defined by
OJP as cases in which there is biological evidence from a crime but for which
no suspect has been identified. Analysis could be conducted either
“in-house” by the DNA laboratories within the grantee’s state, by
outsourcing to state or local laboratories outside of the grantee’s state, by
outsourcing to contractor laboratories, or some combination of these
methods. In addition, Program funding could be used to purchase supplies
and equipment and to pay overtime for the processing of no-suspect
casework.

       DNA profiles that result from Program-funded analysis are to be
entered into the Combined DNA Index System (CODIS) so that those profiles
can assist in solving crimes. CODIS is a national DNA information
repository, maintained by the Federal Bureau of Investigation, that allows
local, state, and federal crime laboratories to store and compare DNA
profiles from crime-scene evidence and from convicted offenders. As of
April 2004, the national CODIS database contained 1,762,005 DNA profiles.
CODIS is used by participating forensic laboratories to compare DNA profiles,
with the goal of matching case evidence to other previously unrelated cases
or to persons already convicted of specific crimes.
       2
          Throughout this report, we use “FY 2001” to refer to the first year of the Program,
since it was in that fiscal year that the Program was initiated. We acknowledge that the first
year of the Program was primarily implemented during FY 2002.




                                            – ii –
Audit Approach

      We audited the Program to evaluate the: 1) progress made toward
the achievement of Program goals; 2) administration and oversight of the
Program by OJP; 3) oversight of outsourcing laboratories by states receiving
Program funds; and 4) allowability of costs charged to Program awards.
While the Program will span multiple years, our audit focused on grants
awarded during the first year of the Program. Grantee use of these funds, in
many instances, is still on-going.

      We reviewed documentation at OJP, conducted audits of four grantees
and various co-grantees within those grantee states,3 and examined
procedures of three contractor laboratories.4 The four grantees that we
audited had received approximately 47 percent of the FY 2001 Program
funding to pay for analysis of approximately 10,900 additional cases. In
addition, the three contractor laboratories selected for review received
contracts to provide DNA analysis services for 13 of the 19 grantees that
outsourced analysis of their no-suspect cases.5

      At each of the four grantees that we audited, we reviewed policies and
procedures, documentation of DNA profiles contained in CODIS, reports
describing the required onsite visits that grantees made to their contractor
laboratories, and other compliance documentation. We reviewed this
information to determine whether each grantee and co-grantee: 1) had
adequate policies for chain-of-custody, evidence handling, quality control,
and data review; 2) was uploading completed DNA profiles to CODIS in a
timely manner; 3) was adequately monitoring their contractor laboratories;
4) was in compliance with relevant sections of the Quality Assurance




      3
          We audited state and local laboratories in Ohio, Texas, New York, and Florida.
      4
         We examined procedures at The Bode Technology Group in Springfield, Virginia;
Orchid Cellmark in Germantown, Maryland, and in Dallas, Texas; and LabCorp in Durham,
North Carolina.
      5
          Six of the 25 grantees (Kansas, Missouri, Maine, New Hampshire, Connecticut,
Delaware) did not outsource the analysis of their no-suspect cases to contractor
laboratories.



                                           – iii –
Standards for Forensic DNA Testing Laboratories (QAS) 6 effective October 1,
1998; and 5) was accredited or certified and had a technical leader on staff.

       We also audited each of these grantees’ Program awards to determine
whether costs charged to each award were allowable and properly
supported, and whether each grantee was in compliance with selected award
conditions. Those conditions included accurate and timely reporting,
utilization of drawdowns, budget management and control, and contractor
laboratory monitoring. We issued four separate audit reports that detailed
the results of these individual audits.7

      At each of the three selected contractor laboratories, we reviewed
chain-of-custody and evidence handling policies and procedures, conducted
laboratory tours, and reviewed other documentation to determine if the
laboratory was in compliance with key Program requirements. Those
requirements include maintaining current accreditation, adhering to relevant
sections of the QAS, having an onsite technical leader, and maintaining
controls over billing.

      We also reviewed OJP’s oversight of the Program to determine if
awards were made in accordance with applicable legislation, and whether
OJP adequately monitored grantee activities and compliance with Program
requirements. In addition, we assessed OJP’s efforts to monitor progress
made toward achievement of the Program’s stated mission.

      The results of the various aspects of our auditing work are described in
the following section.




       6
         The Quality Assurance Standards for Forensic DNA Testing Laboratories (QAS)
provide DNA casework (forensic) laboratories with minimum standards they should follow to
ensure the quality and integrity of the data and competency of the laboratory. Recipients of
Program funding must also certify that DNA analysis performed with that funding will
comply with the QAS. Additional details on the QAS are found in Appendix III of this report.
       7
           See Appendix I for additional audit report information.



                                             – iv –
Summary of Findings and Recommendations


Assessment of Program Achievements

      In evaluating OJP’s progress, we concluded that while Program
grantees were funded for analyses of over 24,700 backlogged
no-suspect cases, current data does not reveal whether increased laboratory
capacity to process and analyze no-suspect cases is being met, particularly
for those states that are strictly outsourcing DNA analyses.

      Our analysis of data we collected from four grantee states indicated an
increase in their forensic profiles uploaded to the national CODIS database
during the period of their Program awards. However, this data did not
distinguish between profiles from Program-funded no-suspect cases and
other DNA uploads. For example, it is unclear from the data whether the
increase in uploads is due to the Program funding, or whether it is because
the laboratory hired, with its own funding, additional staff who helped
increase productivity. Therefore, the data is inconclusive with regard to the
achievement of the Program’s mission.

     In addition, we noted two issues that appear to affect the Program’s
success and impact:

     1)    Only 41 percent or approximately $11.6 million of the
           $28.5 million of FY 2001 Program funds awarded were drawn
           down as of May 31, 2004, nearly two years after awards were
           made.

           In our judgment, significant delays in drawing down funding
           serve as indicators that state grantees are not using Program
           funds to increase their analytic capacity and reduce the backlog.
           Untimely implementation of each grantee’s planned activities
           hinders the entire Program from achieving its objectives.
           Further, funds obligated and not drawn down by Program
           grantees in a timely manner prevent other viable DNA programs
           or Program grantees with more immediate needs from utilizing
           the funds.

     2)    Several profiles that resulted from Program-funded analysis had
           not been uploaded to CODIS as of our review. This was caused


                                    –v–
            primarily by delays in conducting required quality control reviews
            of the data. In some cases, nearly a year had passed since
            completed DNA profiles were returned by the contractor
            laboratories, yet they still had not been uploaded to CODIS.

            The crime-solving potential of these profiles cannot be realized
            until they are uploaded into CODIS, where they can be matched
            to convicted offenders or other crime-scene evidence.

      We also identified some weaknesses in OJP’s development of Program
goals and in its monitoring of progress toward the achievement of the
Program’s mission. First, at the time our audit began, OJP had not
developed formal goals or objectives for the Program. Subsequent to our
inquiries, Program officials provided us with a list of newly established goals
and objectives for the Program. Neither the performance measurements nor
the new Program goals monitored uploaded profiles, statistics which we
believe would be helpful to Program management in monitoring the
Program’s progress. In addition, neither addressed the Program’s mission of
increased laboratory capacity. While Program management did make an
attempt to revise the measurements to better reflect the Program’s
progress, we concluded that the proposed new measurements still would not
have generated the type of data that would allow Program management to
track the Program’s progress toward achieving its mission.

      We recommend that OJP: 1) ensure Program-funded DNA profiles are
reviewed and uploaded to CODIS in a timely manner; 2) develop and follow
procedures that will allow Program officials to more closely monitor grantee
drawdowns, as a means to ensure that adequate progress is being made
toward the achievement of each grantee’s goals, and objectives; and
3) develop Program performance measurements, goals and objectives that
support and allow for the monitoring of progress toward the achievement of
the Program’s mission.


OJP Administration and Oversight of the Program

     We reviewed the OJP’s administration and oversight of the Program
and determined that weaknesses existed in three areas.

     First, OJP issued second-year Program grants to states that had not
drawn down, as of the time the awards were issued, any of their first-year


                                    – vi –
Program grant funds. Specifically, in FY 2003 OJP awarded seven grants for
the second year of the program, totaling $10.2 million, to states that had
drawn down essentially none of their initial awards totaling $11.8 million.
We question OJP’s awarding these additional funds to states that had not yet
shown an ability to draw down their prior Program funds in a timely manner.

       Second, the requirements instituted by Program management for
contractor laboratories performing no-suspect casework analysis were
inconsistent with those required for state and local laboratories performing
the same work. Specifically, contractor laboratories are required to be
accredited or certified by specific independent organizations, and to have a
technical leader onsite. These conditions are not required for state or local
laboratories that participate in the Program. During our review, we found
five laboratories in the states of Ohio and Texas that were performing
Program-funded no-suspect casework analysis but did not meet one or both
of these requirements. In addition, we were unable to determine from
documentation maintained by OJP whether all co-grantees in six additional
grantee states met these same requirements. We believe that the level of
scrutiny placed upon the contractor laboratories should similarly be placed
upon the state and local laboratories.

       Third, OJP has failed to ensure that the federal funds granted under
the Program will benefit the national DNA database. Specifically, we
identified one laboratory, the Fort Worth, Texas, Police Department, that
was uploading Program-funded profiles to Texas’ State DNA Index System
(SDIS, the state level of the CODIS system) but those profiles were not
being uploaded to the National DNA Index System (NDIS, the national level
of the CODIS system). Only profiles uploaded to NDIS are able to aid
investigations across state lines. Therefore, failing to upload to NDIS limits
the crime-solving potential of the profiles. Upon further inquiry, we were
informed that Fort Worth’s profiles could not be uploaded to NDIS based
upon a decision made by the FBI’s NDIS Program Manager. Specifically, the
Fort Worth Police Department, due to the closure of their DNA laboratory,
had hired two contractors, one to analyze the no-suspect cases, and one to
review the data produced by the first contractor and upload that data to
CODIS. In December 2003, the Fort Worth Police Department was notified
by the NDIS Program Manager that its data analysis contractor did not have
the authority to upload forensic profiles for them. Since OJP’s requirements
for the Program only state that profiles are to be uploaded to CODIS (a term
that encompasses the entire database system of indexes at the local, state,
and national level), the Fort Worth Police Department was able to use


                                    – vii –
Program-funded contractor services without violating OJP requirements,
even though the resultant profiles could not be added to NDIS. We take
issue with such an arrangement, and believe that viable profiles (complete
and allowable) that result from federal funding awarded by OJP should be
uploaded to the NDIS for comparison with DNA profiles from other NDIS
laboratories. During our audit, the Fort Worth Police Department took action
to remedy the arrangements it had for data review, to ensure the profiles
could be added to NDIS. However, the failure of OJP to ensure that all
viable profiles be uploaded to NDIS remains.

       We recommend that OJP: 1) more closely monitor previous grantees’
progress in drawing down grant funds prior to awarding them additional
funding; 2) continue to pursue de-obligation of funds for Program grantees
that have shown their inability to draw down their Program funds in a timely
manner and that are unable to provide satisfactory evidence that they will
be able to do so in the near future; 3) ensure that Program requirements in
future years require all laboratories analyzing no-suspect cases to meet the
same requirements; and 4) ensure that Program requirements encourage
and clarify that the expectation for grantees is ultimately the upload of
profiles to NDIS.


Grantee Oversight of Contractor Laboratories

       In assessing the adequacy of grantee oversight of contractor
laboratories, we identified four grantee/co-grantee laboratories that did not
maintain adequate documentation to substantiate that their oversight of
their contractor laboratories met certain requirements imposed by the QAS.
Specifically, these laboratories could not substantiate that a complete onsite
visit of their contractor laboratory had been conducted or that their
contractor’s on-going compliance with applicable standards had been
confirmed.

       In addition, six laboratories, including three grantee/co-grantee
laboratories and three contractor laboratories, had incomplete or outdated
outsourcing policies or procedures relating to chain-of-custody or evidence
handling of no-suspect cases. For example, the written policies of each of
the three grantee/co-grantee laboratories failed to describe fully the
procedures currently in use for outsourcing no-suspect casework evidence.
In each instance, the procedures staff used, as described to us, appeared
sufficient to safeguard no-suspect casework evidence. In addition, two


                                    – viii –
contractor laboratories’ procedures failed to address an aspect of facility
cleaning and decontamination. Finally, one contractor’s procedures failed to
describe methods to properly secure evidence after it had been received and
logged in by the receptionist, but was awaiting the attention of technical
personnel.


Allowability of Grantee Expenditures

      We assessed the allowability of costs charged to Program awards by
four grantees. While we found that they materially complied with most
award requirements, we noted deficiencies at all four grantees and found
some costs charged to Program awards that were unallowable and/or
unsupported. As a result, we questioned costs of $111,297 out of a total of
approximately $13.5 million awarded. In addition, we made nine
recommendations addressed to OJP in separate audit reports we issued.
Accordingly, these recommendations were not reiterated in this report.

      We also assessed whether selected grantees/co-grantees complied
with Program requirements pertaining to costs paid to contractor
laboratories. We found that one co-grantee was overpaying for services
received from its contractor laboratory, and we questioned $44,640 in
unallowable costs as a result. We recommended that OJP remedy these
questioned costs.

      Our audit results are discussed in greater detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology, and a list of audited contractor laboratories, grantees, and
co-grantees appear in Appendix I. Audit criteria applied during our work is
described in Appendix III.




                                   – ix –
                    THE NO SUSPECT CASEWORK
                 DNA BACKLOG REDUCTION PROGRAM

                               TABLE OF CONTENTS


INTRODUCTION .................................................................................. 1


   The Combined DNA Index System ........................................................ 2

   Determining the National Casework Backlog .......................................... 2

   The No Suspect Casework DNA Backlog Reduction Program..................... 3

           Program Background ............................................................... 4

           Program Structure .................................................................. 8


FINDINGS AND RECOMMENDATIONS ................................................... 10


   I.      Program Impact and Achievement of Program Goals .....................10

           Impact of the Program on Laboratory Capacity ......................... 10

           Untimely Utilization of Program Funds...................................... 12

           Profiles Not Uploaded to CODIS .............................................. 14

           Program Goals and Performance Measurements ........................ 18

           Recommendations ................................................................ 21


   II.     Administration and Oversight of the Program ...............................22

           Additional Funds to Grantees not Drawing Down Initial
                       Funds Timely ....................................................... 23

           Inconsistent Requirements for Laboratories Performing
                       No-suspect Casework Analysis ............................... 25
          Failure to Ensure Program Funding to Support the
                      National DNA Database ......................................... 27

          Recommendations ................................................................ 29


   III.   Grantee Oversight of Contractor Laboratories ...............................31

          Inadequate Contractor Oversight Documentation ...................... 31

          Incomplete or Outdated Policies and Procedures........................ 34

          Recommendations ................................................................ 40


   IV.    Allowability of Costs Charged to Program Awards..........................42

          Ohio Bureau of Criminal Identification and Investigation............. 43

          Texas Department of Public Safety .......................................... 45

          Florida Department of Law Enforcement................................... 45

          New York State Division of Criminal Justice Services .................. 47

          Recommendations ................................................................ 51


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 52

   DNA Identification Act of 1994 ............................................................52

   DNA Analysis Backlog Elimination Act of 2000 .......................................53


STATEMENT ON MANAGEMENT CONTROLS ........................................... 54


OBJECTIVES, SCOPE, AND METHODOLOGY ........................................... 55


GLOSSARY OF TERMS AND ACRONYMS ................................................ 62
AUDIT CRITERIA ............................................................................... 66

   Federal Legislation .............................................................................66

   Quality Assurance Standards...............................................................66

   Solicitation Requirements ...................................................................67

   OJP Financial Guide............................................................................68


OJP RESPONSE TO AUDIT RECOMMENDATIONS..................................... 70


ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT78
                                 INTRODUCTION


      A key objective of the Department of Justice’s (Department) strategic
plan is to improve the crime fighting and criminal justice administration
capabilities of state and local governments. The use of DNA profiles
(computerized records containing DNA characteristics used for identification)
has become an increasingly important crime-fighting tool, and the
Department has created funding opportunities to assist state and local
governments in implementing, expanding, or improving their use of DNA
technology. The Office of Justice Programs (OJP), National Institute of
Justice (NIJ), is the primary Department component disseminating these
funds.

       The NIJ, through its Office of Science and Technology, supports
research, development, and improvements in the fields of forensic sciences.
The Office of Science and Technology’s Investigative and Forensic Sciences
Division (IFSD) operates the DNA Backlog Reduction Program with the goal
of eliminating public crime laboratories’ backlogs of DNA evidence.

      The NIJ’s DNA Backlog Reduction Program has two components: the
Convicted Offender DNA Backlog Reduction Program, which provides funding
to states to outsource analyses of convicted offender samples to contractor
laboratories; and the No Suspect Casework DNA Backlog Reduction Program
(Program), which provides funding to identify, collect, and analyze DNA
samples from evidence collected in no-suspect cases. The NIJ defines a
no-suspect case as a case in which there is biological evidence from a crime
but where no suspect has been identified or the original suspect has been
eliminated. Our audit focused on the administration and operations of the
program relating to no-suspect cases.8

      When no-suspect cases are analyzed, the resulting DNA profiles are
compared to local, state, and national DNA databases to search for matches
with profiles from other crime scenes or from convicted offenders. These
comparisons are conducted through the national network of DNA databases,
referred to as the Combined DNA Index System (CODIS), which we discuss
on the following page.



      8
          We previously audited the program related to convicted offender samples. For the
results of this audit see Audit Report No. 02-20, The Office of Justice Programs Convicted
Offender DNA Sample Backlog Reduction Grant Program, issued in May 2002.



                                          –1–
The Combined DNA Index System

      CODIS is a national DNA information repository that allows local, state,
and federal crime laboratories to store and compare DNA profiles from
crime-scene evidence and from convicted offenders. The Federal Bureau of
Investigation (FBI) oversees CODIS and provides participating laboratories
with special software that organizes and manages its DNA profiles and
related information. Through a hierarchy that encompasses national, state,
and local indexes, CODIS identifies matches between DNA profiles from case
evidence and a convicted offender or evidence from multiple crime scenes.

      DNA profiles are uploaded into the national index (the National DNA
Index System or NDIS) from the state indexes (SDIS), and from the local
indexes (LDIS) into SDIS. The forensic laboratories at each level of the
CODIS hierarchy decide which DNA profiles to upload to the next level, and
conversely the state and national levels determine – generally based upon
applicable state and federal legislation – which profiles they will accept from
the local and state indexes.

      Currently, CODIS contains two primary databases: the convicted
offender database and the forensic database which contains the case
evidence profiles. As of April 2004, NDIS contained 1,681,700 convicted
offender profiles and 80,300 forensic profiles.

      The FBI measures the effectiveness of CODIS by tracking the number
of investigative leads that have been provided through CODIS’ match
capabilities. As of April 2004, the FBI reported a total of 16,695
investigations aided by CODIS.9


Determining the National Casework Backlog

      The current DNA casework backlog is significant. A report submitted
to Congress by the Attorney General in April 2004 estimated that over
540,000 criminal cases with biological evidence were awaiting DNA testing in
state and local laboratories and at law enforcement agencies across the



       9
          CODIS's primary metric, the "Investigation Aided," is defined by the FBI as a case
that CODIS assisted by producing a match between profiles (i.e., linking two cases together,
or linking a case profile to an offender profile) that would not otherwise have been
developed.



                                          –2–
country.10 Those cases include 52,000 homicides and 169,000 sexual
assaults.

        However, determining the full extent of the backlog is complicated by
the fact that there are more than 17,000 law enforcement agencies that
potentially could be retaining untested forensic DNA evidence. Only about
10 percent of the estimated backlog of casework samples have been
submitted to state or local crime laboratories. Further, even if law
enforcement agencies submitted these cases to state and local crime
laboratories, most of those laboratories lack sufficient evidence storage
facilities for the resulting volume of evidence. In addition, state and local
laboratories have been challenged financially, have had difficulty filling
positions with qualified candidates, and already have a backlog of evidence
awaiting analysis from cases already submitted. Police departments often
retain evidence samples without submitting them because they believe that
crime laboratories will not accept the samples or would be unable to analyze
them.

      Because of the difficulty of quantifying the no-suspect casework
backlog, our audit could not determine the impact that the Program had on
reducing this backlog.


The No Suspect Casework DNA Backlog Reduction Program

      The Program was developed to assist states in reducing the number of
untested no-suspect cases so that the resultant DNA profiles could be
uploaded to CODIS. The Program was authorized under the DNA Analysis
Backlog Elimination Act of 2000. According to the NIJ, the mission of the
Program is “to increase the capacity of state laboratories to process and
analyze crime-scene DNA in cases in which there are no known suspects,
either through in-house capacity building or by outsourcing to accredited
private [contractor] laboratories.”

      The Program was initiated with a Solicitation for applications to be
submitted by September 2001. However, due primarily to the events
surrounding September 11, 2001, the Solicitation deadline was extended
into FY 2002. Therefore, while the Program was initiated in FY 2001, the


      10
           The report was based on a study conducted by Washington State University and
Smith Alling Lane, a Tacoma, Washington, law firm.




                                         –3–
first grant applications were received and reviewed in FY 2002, and the first
awards were issued toward the end of that fiscal year.11

     Sources of the Program’s $28.5 million in funding included a portion of
$15.3 million transferred by the Attorney General from the Asset Forfeiture
Fund Super Surplus,12 and a portion of $20 million appropriated in FY 2002
by Congress as part of funding for programs authorized under the DNA
Analysis Backlog Elimination Act of 2000. A total of 27 states13 applied for
awards in the Program’s first year, and 25 received awards.14


Program Background

      The 25 states that received funding proposed to analyze over 24,700
no-suspect cases using grant funds. The following table details the total
grant awards that each state received and the number of no-suspect cases
that they proposed to analyze with the funding:




       11
           Throughout this report, we use “FY 2001” to refer to the first year of the Program,
since it was in that fiscal year that the Program was initiated. We acknowledge that the
Program was primarily implemented during FY 2002.
       12
         The Asset Forfeiture Fund Super Surplus in the Department contains excess
end-of-year monies that the Attorney General can use for authorized purposes.
       13
          For the sake of simplicity, we use the term “state” throughout this report to
include both states and U.S. territories, such as Puerto Rico.
       14
          Of the 27 states that initially applied for awards in FY 2001/2002, one state
withdrew its application and another state decided to withhold its application until the
second year of the Program. The remaining 25 states all received awards.



                                            –4–
                              TABLE 1
                 PROGRAM GRANTEES AND FUNDS AWARDED

                     Grantee            FY 2002 Funds             Cases
                      State                Awarded               Funded15TP   PT




            Maryland                      $5,048,669               3,704
            New York                       5,039,535               3,146
            Texas                          3,379,688               3,160
            Florida                        2,795,086               1,500
            Ohio                           2,254,088               3,068
            Wisconsin                      1,630,000                 850
            Michigan                       1,471,170               1,359
            Arizona                        1,052,282               1,729
            Massachusetts                    917,030               1,000
            Alabama                          690,246                 463
            New Mexico                       550,245                 785
            Illinois                         500,000                 400
            Oklahoma                         500,000                 500
            Kansas                           377,176                 450
            Maine                            376,554                 300
            Missouri                         348,412                 513
            Indiana                          303,558                 203
            Kentucky                         291,543                 400
            New Jersey                       286,805                 420
            Nebraska                         226,494                 100
            Puerto Rico                      131,678                  60
            Delaware                         129,413                  48
            Connecticut                      117,163                 300
            New Hampshire                     71,716                 250
            Vermont                           20,829                  30
              TOTALS                     $28,509,380              24,738
   Source: Office of Justice Programs


     Grantees could use Program funding to analyze no-suspect cases in
several different ways:

   •   “In-house” by DNA laboratories within the grantee’s state;

   •   Outsource analysis to state or local laboratories outside of the
       grantee’s state;


       15
       TP This number represents the total number of no-suspect cases that grantees
            PT




proposed would be analyzed with Program funds, through both outsourcing and in-house
analysis.



                                         –5–
  •   Private laboratories; or

  •   Any combination of the above.

The methodologies proposed by the states for the analysis of no-suspect
cases are illustrated in the following graphic:

                                    FIGURE 1
                           Program Summary – FY 2001




                     Non-Participant                        PR

                     In-House Analysis Only
                     Outsourcing Only
                     In-House and Outsourcing
      Source: Office of Justice Programs


      As shown above, six grantees chose to use in-house analysis only
(Kansas, Missouri, Maine, New Hampshire, Connecticut, and Delaware). For
the 19 grantees that chose to outsource some or all of their DNA analyses,
the following table details which contractor laboratories they selected:




                                           –6–
                              TABLE 2
           PROGRAM GRANTEES AND CONTRACTOR LABORATORIES

                                                        Contractor Laboratory Selected
                       Grantee
                                                                    Orchid                       Fairfax
                        State                Bode
                                                        16
                                                                           17 LabCorp
                                                                                      18
                                                                                                         19        Other
                                                                                                                              20
                                                                  Cellmark                      Identity
                                                   TP        PT                       TP   PT                            TP        PT



                                                                          TP                            TP    PT




           Maryland                            √                                                    √

           New York                                                   √           √                                  √

           Texas                                                      √

           Florida                             √                                                    √                √

           Ohio                                √                      √

           Wisconsin                                                                                                 √

           Michigan                            √                      √                             √                √

           Arizona                                                    √

           Massachusetts                                              √

           Alabama                             √

           New Mexico                                                                                                √

           Illinois                                                   √

           Oklahoma                                                   √

           Indiana                                                                                                   √

           Kentucky                                                                                 √

           New Jersey                          √                      √

           Nebraska                                                                                                  √

           Puerto Rico                                                                              √

           Vermont                                                    √




      16
      TP    PT   The Bode Technology Group, Inc. is located in Springfield, Virginia.
      17
      TP   Orchid Cellmark has U.S. locations in Germantown, Maryland; Dallas, Texas; and
            PT




Nashville, Tennessee.
      18
      TP    PT   Laboratory Corporation of America has 31 locations in the U.S.
      19
      TP    PT   Fairfax Identity Laboratories is located in Fairfax, Virginia.
      20
      TP  “Others” include Reliagene Technologies, Inc. in New Orleans, Louisiana;
            PT




Identigene in Houston, Texas; Genelex Corporation in Seattle, Washington; GeneScreen in
Dallas, Texas and Dayton, Ohio; DNA Reference Lab, Inc. in San Antonio, Texas; and
University of Nebraska Medical Center in Omaha, Nebraska.



                                                                  –7–
      In addition to the direct costs of in-house analysis or outsourcing,
Program funds also could be used for a number of other purposes in support
of the analysis of no-suspect cases. These included paying for costs
associated with oversight of contractor laboratories, purchasing supplies and
equipment, or paying for overtime for the processing of no-suspect
casework.


Program Structure

      One stated objective of the Program was to foster cooperation and
collaboration among all of the affected governmental agencies and
departments, such as law enforcement agencies, crime laboratories, and
prosecutors. According to the NIJ, the intent of this objective was to
maximize the use of CODIS for solving no-suspect crimes. Therefore,
states with more than one DNA laboratory were required to demonstrate
that all of its laboratories were provided with the opportunity to participate
in the Program. Consequently, while the awards were issued to one agency
within each state, those grantees were required to coordinate and facilitate
the participation of co-grantees as part of its award. Therefore, within this
report and throughout our audit work we included co-grantees (i.e., local
laboratories or law enforcement agencies that also received funds from the
Program), within the scope of our review.

       The oversight of the funds distributed by the Program involved various
entities. Specifically:

      1)    OJP awarded funds and administered the Program through the
            primary grantee in each state;

      2)    The primary grantee within each state oversaw the financial
            management of each award, including facilitating reimbursement
            to each of the co-grantees for their Program-funded
            expenditures, and collecting appropriate information from
            co-grantees to meet the required reporting obligations to OJP;
            and

      3)    Each of the grantees, whether the primary grantee or a
            co-grantee, was required to have oversight over their own
            Program-funded technical operations and activities, as well as
            those of any contractor laboratory they used as part of Program
            activities.



                                     –8–
     In several states, including Ohio and New York, the primary grantees
formalized its relationship with each co-grantee in the form of a contract or
agreement to ensure that each co-grantee understood their oversight and
compliance obligations.

      Each of these layers of accountability is addressed within this report.
Finding I assesses Program achievements. Finding II addresses OJP’s
responsibilities of oversight, Finding III addresses each grantee’s oversight
over technical operations, and Finding IV addresses financial management of
the primary grantee.




                                    –9–
                  FINDINGS AND RECOMMENDATIONS


I.     Program Impact and Achievement of Program Goals

       We determined that the Program has been successful in funding the
       analysis of over 24,700 previously backlogged no-suspect cases, as
       projected by Program grantees. However, we were unable to
       determine whether the Program was achieving its mission of increasing
       laboratory capacity. Further, many grantees experienced lengthy
       delays in implementing their proposals and were not drawing down
       Program funds on a timely basis. We also determined that while the
       Program awards helped to increase the volume of no-suspect profiles
       uploaded to CODIS, all four of the individual grantees we audited
       experienced delays in uploading completed profiles. Finally, OJP had
       not developed substantive Program goals, and the Program’s
       performance measurements were not adequate to assess whether it
       was achieving its stated mission.


Impact of the Program on Laboratory Capacity

       As stated previously, the mission of the Program is “to increase the
capacity of state laboratories to process and analyze crime-scene DNA in
cases in which there are no known suspects, either through in-house
capacity building or by outsourcing to accredited private laboratories.” To
accomplish this, OJP awarded approximately $28.5 million in funding to 25
states for the analysis of over 24,700 backlogged no-suspect cases during
the first year of the Program.

      We found that measuring the Program’s progress was complicated by
the lack of definitive data linking Program funding to trends observed in
increased uploads of DNA profiles to NDIS from case evidence. For example,
we collected NDIS upload statistics for each of the four grantees we audited
to determine how the Program awards affected the number of complete21




       21
          A profile’s completeness is determined by whether it contains all of the points of
information that the FBI requires for an NDIS profile to be considered. Therefore, we only
included complete profiles in our productivity calculations.




                                           – 10 –
profiles that those states were able to upload to NDIS prior to and during the
award period. Those statistics are illustrated on the following graph:22

                                           FIGURE 2
                              Forensic Profiles Uploaded to NDIS
  4800
                                                                          4,308
  4400

  4000
                                                                      3,701
                                                                                                  3,605
  3600

  3200

  2800
                                                   2,503
  2400
                          2094
  2000                1,780
                                                                  1,528
  1600                                        1,334
  1200                                    1,055
                                                            890
                                    709                                                     688
   800
                                                                                  320 338
   400
              0   0
     0
                  Ohio                     Texas                  New York            Florida

                      2000                  2001                  2002              2003

         Source: Program grantees


       As the figure illustrates, all four of the grantees demonstrated a
marked increase in total complete profiles analyzed and uploaded to NDIS
after receiving their Program awards. However, since these increases were
inclusive of both the no-suspect cases funded by the Program as well as
other DNA cases that the laboratories were analyzing with local funding, we
cannot conclusively state the extent to which this data establishes that the
Program met its mission. For example, it is unclear from the data whether
the increase in uploads is due to the Program funding, or whether it is
because the laboratory hired, with its own funding, additional staff that
helped increase productivity.



         22
          Ohio did not join NDIS until November 2000 and had a major computer system
malfunction in 2001, so no profiles went to NDIS in those years. However, profiles for Ohio
uploaded to SDIS from 2000 through 2003 were 136, 558, 1099, and 2084, respectively.



                                                   – 11 –
       When considered in conjunction with delays in the drawdown of
funding and delays in the upload of profiles, two issues we discuss later in
this section, it becomes even more apparent that without better data a
concrete determination about the Program’s achievement of its mission is
not possible. For example, for those of our four auditees that had not
materially drawn down Program funding, we would conclude that the
Program did not account for the increase in productivity demonstrated in the
previous chart.


Untimely Utilization of Program Funds

     During our audit fieldwork, we noted that many of the grantees had
drawn down very little of their award funds, or in some cases had not drawn
down any funds at all.

      As of May 31, 2004, only $11.6 million, or about 41 percent of the
$28.5 million awarded from FY 2001 Program funds, had been drawn down
by the 25 Program grantees. For the four grantees included in our audit,
only $5.9 million of the $13.5 million awarded, or 44 percent, had been
drawn down as of the same date. While these awards were made between
July 2002 and September 2002, the largest grantee in terms of dollars
awarded (Maryland), and two additional grantees (Delaware and
Connecticut), had not drawn down any funds as of May 31, 2004. These
three grantees received awards totaling nearly $5.3 million. The following
chart illustrates the drawdown trends for this Program through May 2004:




                                   – 12 –
                                                                                FIGURE 3

                                                                    Program Funding Drawdowns
                                                                       October 2002 through May 2004
     Dollars Awarded to Grantees




                                                   28.5
                                                   25.7
                                                   22.8
                                                   20.0
                                   (in millions)




                                                   17.1
                                                   14.3
                                                   11.4
                                                    8.6
                                                    5.7
                                                    2.9
                                                    0.0
                                                   Ju 03




                                                            4
                                                   Fe 03




                                                    Ju 3




                                                   Fe 04
                                                   D 02
                                                   Ja 02




                                                   M 3




                                                   Au 3
                                                   Se 03
                                                   O 03


                                                   D 03
                                                   Ja 03


                                                   M 04


                                                   M -04
                                                   M 03
                                                   Ap 03




                                                   Ap 04
                                                   N 02




                                                   N 03




                                                        -0
                                                          0
                                                      r-0




                                                       l-0
                                                        -
                                                      n-




                                                      n-




                                                      n-
                                                      b-
                                                        -
                                                        -




                                                        -




                                                      g-
                                                      p-


                                                        -
                                                        -


                                                      b-

                                                        -
                                                        -




                                                        -
                                                    ay




                                                     ay
                                                    ov
                                                    ec




                                                    ov
                                                    ec
                                                     ar




                                                     ar

                                                      r
                                                     ct




                                                     ct
                                                   O




                                                                                             Date

                                                          Monthly Drawdowns (All Grantees)          Cumulative Drawdowns (All Grantees)



      While the drawdown amounts are not a definitive indicator of specific
grantee Program activities, we believe that drawdowns are an important
indicator of overall grantee progress toward the achievement of proposed
objectives.

       For example, the award to the New York State Division of Criminal
Justice Services (DCJS) in the amount of $5.04 million, with a term of one
year, was awarded in September 2002. Yet, as of May 2004, only $500,000
had been drawn down, or less than 10 percent of the award amount.
According to grantee officials, multiple reasons accounted for their delayed
drawdowns, including the time it took to establish separate contracts with
the co-grantees across the state. In many cases, these contracts were not
finalized until August 2003, nearly a year after the 1-year award was made.
Further, grantee officials in New York stated that amounts drawn down may
not be the best indicators of progress actually being made. Because funds
may have been spent or obligated, but not yet drawn down, they believed
that the amount of funds actually spent and obligated would provide a better
gauge. However, as of April 2004, New York reported total funds spent and
obligated of $2.2 million, which is still only 45 percent of the total awarded.



                                                                                   – 13 –
Further, one co-grantee in the state of New York estimated that its program
will not be completed until December 2004, or 27 months after the initial
1-year award was made.

       In another example, the Texas Department of Public Safety (TXDPS),
which had drawn down approximately $2 million of its $3.4 million award as
of May 2004, cited delays in initiating contracts with the co-grantees in its
state as a reason for delays in expending funds. Further, the Florida
Department of Law Enforcement (FDLE), which had drawn down about
$2 million of its $2.8 million award, stated that backlogs at its contractor
laboratories (i.e., contractor laboratories’ inability to process all the cases it
was receiving from various clients, delaying results back to those clients)
were preventing it from expending its remaining award funds. The FDLE
anticipated completing drawdowns in December 2004. Finally, as of May
2004, the Ohio Bureau of Criminal Identification and Investigation (Ohio
BCI&I) had drawn down approximately $1.4 million of its $2.3 million award.
Officials at the Ohio BCI&I cited delays in the submission of
no-suspect cases by law enforcement agencies, and the screening of
evidence by the laboratory for items that were most likely to produce viable
DNA results.

       In sum, grantee drawdowns are one gauge of the overall progress
being made toward achieving grantees’ proposed goals. Program awards
were made for an initial period of one year, and the above examples
illustrate that many grantees have not made timely progress in completing
their proposed programs, and have had to obtain extensions from the NIJ.
Not only does this practice hinder the timely achievement of the Program’s
overall mission, but obligated funds not being utilized by this Program could
have been used by other programs or grantees with more immediate needs
for the funding.


Profiles Not Uploaded to CODIS

       An additional factor that affects the overall success of the Program is
whether Program-funded profiles are being uploaded to CODIS. During our
audit work at various state and local laboratories, we observed that
approximately 2,538 of the DNA profiles that had resulted from Program-
funded analysis had not been uploaded to CODIS. Specifically, we noted
various laboratories in all four grantee states had received back data from
their contractor laboratories for cases analyzed by those contractors, but




                                     – 14 –
that the resultant DNA profiles had not been uploaded to CODIS as of the
time we reviewed the data.

      There is always a delay between when the data is received from a
contractor and when it is uploaded by the state to CODIS. This time lag is
due to the fact that, after receiving the contractor data, states must address
the requirements of the Quality Assurance Standards for Forensic DNA
Testing Laboratories (QAS), effective October 1, 1998, prior to uploading the
data to CODIS. The QAS require that a forensic laboratory ensures that the
data it receives back from its contractor meets certain quality standards. As
part of this, the laboratory must conduct a technical and administrative
review for each case analyzed by the contractor. However, as detailed
below, grantees varied in their ability to address the QAS requirements in a
timely manner.

       To assess the reasons that might account for our observation of
profiles not being uploaded to CODIS, we analyzed data provided by the
grantees and co-grantees. As of April 2004, 2,538 profiles from
Program-funded cases returned to the grantees had not been uploaded to
CODIS. We reviewed the reasons provided by the grantees and
co-grantees for this delay and summarized in the following figure.23




       23
            Due to the unique circumstances regarding the Fort Worth Police Department’s
inability to upload profiles to NDIS, we excluded their results from this analysis. This issue
is further discussed in Finding II of this report.



                                           – 15 –
                                             FIGURE 4

                        Reasons Profiles Were Not Uploaded to CODIS

                                       Various Other
                                     Technical Reasons
                                            4%
                                                                                Awaiting Data
             No DNA                                                               Review
              34%                                                                   36%




     Already in CODIS                                                          Only Victim
            1%                                                                  Profile*
                            Mixture*       Insufficient Data                      12%
                              4%                  9%


Source: Program grantees and CODIS reports

 * “Mixture” refers to profiles that reflect DNA from multiple persons and are too complex to be
appropriately included in CODIS. “Only Victim Profile” refers to those profiles where only the victim’s
DNA was found on the evidence. Victim DNA profiles are not permitted in NDIS.


       The most common reason provided for profiles not being uploaded was
“Awaiting Data Review.” In its Solicitation for the No Suspect Casework DNA
Backlog Reduction Program (FY 2001) (Solicitation), the NIJ required that
profiles be “expeditiously uploaded into CODIS.” While no standards or
criteria govern how much time grantees are permitted before they should
upload analyzed data to CODIS, profiles that have not been uploaded to
CODIS cannot be compared and matched to other forensic and offender
profiles, limiting the crime-solving benefits that those profiles can have.

      We further examined this issue for seven grantees and co-grantees.
We judgmentally selected 25 cases and, as part of a larger review of those
cases, determined the length of time it took to upload the profiles once the
DNA results were returned by contractor laboratories for each case where
resultant profiles were uploaded. The results of that analysis are
summarized as follows:




                                               – 16 –
                                     FIGURE 5
                            Average Days for Data Review
  200
                                187
                                                                           Ohio BCI&I
  180

  160                                                                      Fort Worth, TX
                                                                           Police Dept
  140
                        122                                                Jacksonville, FL
  120                                                                      FDLE Lab

  100
                                                                           Palm Beach, FL
                                                                           Sheriff's Office
                                                 76
   80                                                  70   68             New York State
                                                                           Police
   60
                                                                           Monroe County, NY
   40                                                                      Public Safety Lab

   20            12                       9                                Nassau County, NY
                                                                           Medical Examiner
    0
        Source: Grantee case files and CODIS reports


      These results illustrate the vast differences between the various
grantees and co-grantees. For example, the Palm Beach Sheriff’s Office and
the Ohio BCI&I were able to conduct the reviews required by the QAS
necessary for upload to CODIS within an average of 9 days and 12 days,
from the time the analyzed data was returned by the contractor laboratory.
However, it took the FDLE’s Jacksonville laboratory and the Fort Worth Police
Department24 an average of 187 days and 122 days to conduct these reviews
and upload the data to CODIS.

       Further, we noted many additional cases where data had not been
reviewed and profiles had not been uploaded that exceeded the times
illustrated above. For example, we noted cases for the FDLE’s laboratories
in Jacksonville and Tampa Bay where analysis results were returned by the
contractor laboratories in June 2003 and August 2003, but the profiles had
not been uploaded to CODIS when we conducted our review in March 2004.


        24
          The Fort Worth Police Department contracted with the University of Northern
Texas for the data review and upload to CODIS.



                                              – 17 –
We believe that these data review delays are excessive and not in
accordance with the intent of the Program. DNA profiles not reviewed
cannot be uploaded to CODIS and therefore cannot be linked to other
crime-scene evidence or offender profiles, undermining the mission of the
Program.

       The second most common reason, “No DNA,” is the result of
insufficient DNA being detected during the screening process of the evidence
to yield a viable sample for DNA analysis. This reason is not a problem to be
addressed, particularly with old evidence from unsolved crimes, since the
DNA present on the evidence may have deteriorated over time and may not
be of sufficient quantity to yield a DNA profile.

      As discussed in the following section, the lack of program goals and
objectives, combined with the previously discussed delays in utilizing
Program funding and in uploading profiles to CODIS, led us to question
whether OJP had established adequate performance measurements to
monitor the Program’s progress.


Program Goals and Performance Measurements

      In response to the Government Performance and Results Act, which
requires agencies to develop strategic plans that identify their long-range
goals and objectives and establish annual plans that set forth corresponding
annual goals and indicators of performance, OJP developed one performance
measurement for the Program. The stated mission for the Program is “to
increase the capacity of state laboratories to process and analyze
crime-scene DNA in cases in which there are no known suspects, either
through in-house capacity building or by outsourcing to accredited private
laboratories.” This mission directly supports the following Department
strategic plan goal and objective:

  •   Goal: To prevent and reduce crime and violence by assisting state,
      tribal, and local community-based programs.

  •   Objective: To improve the crime fighting and criminal justice
      administration capabilities of state, tribal, and local governments.

     We reviewed OJP’s progress toward achieving the single performance
measurement established for the Program: Number of DNA samples/cases
processed in cases where there is no known suspect. For this measurement,



                                    – 18 –
OJP had set a goal of 24,800 samples/cases for FY 2002. However, due to
various factors, including the events of September 11, 2001, disbursement
of funding for this Program was delayed and not completed until September
2002, and OJP did not meet this measurement. The Program funded the
analysis of 24,738 samples or cases in its first year. According to
information provided by the NIJ, only 10,609 cases had been analyzed as of
December 31, 2003. In FY 2003 and FY 2004, OJP established goals of
33,850 and 43,000 samples or cases, respectively.

      Even though the targets established for the Program in FY 2002 were
not achieved, we sought to further analyze the established performance
measurement as it relates to the Program’s mission. While its mission is to
increase the capacity of state laboratories to process and analyze
crime-scene DNA in no-suspect cases, the Program’s performance
measurement merely tracks no-suspect samples or cases that have been
“processed.” We concluded that this measurement does not gauge whether
the Program is making progress toward the achievement of its stated
mission.

      In discussing the performance measurement with Program
management, they stated that they had attempted to add the following data
points to their performance measurement in FY 2003: 1) number of profiles
entered into CODIS; 2) number of profiles entered into NDIS; 3) number of
investigations aided; and 4) number of cases solved.

       According to documentation provided by Program management, the
OJP’s budget office informed them that they could not make changes to their
performance measures since they had already been entered into the
"Performance Measurement Table" and been approved. However, while
these measurements may have assisted Program management in monitoring
certain Program achievements, these revised performance measurements
still would not generate the type of data (i.e., laboratory capacity prior to
and during the Program) that would allow Program management to track the
Program’s progress toward achieving its mission of increasing laboratory
capacity.

      In addition to assessing whether OJP had met the performance
measurement it had established, we assessed whether there were other
performance measurements that could be established that would provide
decision-makers within the Department and Congress information on
whether the Program was meeting its goals and mission. We concluded that
the Program performance measurement does not address whether the



                                   – 19 –
Program is aiding in reducing the national backlog of no-suspect casework
samples awaiting analysis. While reducing the backlog is not part of the
official mission of the Program, monitoring this information would be useful
in determining whether Program funding is having a positive effect on the
national no-suspect casework backlog, or whether a decrease in the national
no-suspect casework backlog has the beneficial effect of increasing
laboratory capacity across the country.

       In a report issued in November 2003, the General Accounting Office
(GAO) cited concerns that performance measurements for many NIJ
            25
            TP        PT




programs, including this Program, were inadequate to assess results.26 The      TP   PT




report stated that the Program’s one performance measurement was not
outcome-based; rather, it was merely an intermediate measure. GAO
recommended that the NIJ reassess the measures used to evaluate the
Office of Science and Technology’s progress toward achieving its goals and
focus on outcome measures to better assess results where possible.
Further, in a prior report issued by the Office of the Inspector General (OIG),
deficiencies were noted relating to the adequacy of data being collected by
OJP to monitor performance measurements for another DNA-related
program.27                 TP   PT




       In addition, when we began our audit work in November 2003, we
asked Program officials for the goals and objectives established for the
Program. OJP officials responded that management personnel for the
Program had recently changed, but those officials were unaware of any
formal goals and objectives for the Program. In response to our inquiry, OJP
officials developed the following goals and objectives for the Program:

   •        Ensure that state and local forensic casework laboratories receive
            funding to reduce their no-suspect case backlogs;

   •        Make future awards in a timely manner;

   •        Ensure consistency among applicants;

       25
       TP Effective July 7, 2004, the General Accounting Office (GAO) became the General
                 PT




Accountability Office. The acronym remains the same.
       26
       TP  GAO Report No. 01-198, titled Better Performance Measures Needed to Assess
                 PT




Results of Justice’s Office of Science and Technology, dated November 2003.
       27
       TP The prior OIG audit report, titled The Office of Justice Programs Convicted
                 PT




Offender DNA Sample Backlog Reduction Grant Program, Report No. 02-20, was issued in
May 2002.



                                         – 20 –
     •   Ensure funding drawdowns meet program and application goals;

     •   Provide better award monitoring; and

     •   Collect and report accurate statistics and performance measures.

       In our judgment, none of these goals and objectives allow OJP to
assess whether the Program is making progress toward achieving its mission
of increasing the capacity of state laboratories to process and analyze
no-suspect DNA from crime scenes. Some examples of such goals and
objectives could include: 1) To increase grantee laboratory capacity by a
certain percentage, and 2) To reduce grantees’ no-suspect backlogs by a
certain percentage.


Recommendations

         We recommend that OJP:

1.       Develop and implement procedures that will allow Program officials to
         more closely monitor grantee drawdowns as a means to ensure that
         adequate progress is being made toward the achievement of each
         grantee’s goals and objectives.

2.       Ensure that timely uploads of Program-funded profiles are performed
         by all grantees.

3.       Develop Program goals and objectives that support the achievement of
         the Program’s mission of increasing laboratory capacity, and
         implement a system to track these goals.

4.       Develop performance measurements that allow the monitoring of
         progress toward achieving the Program’s mission, such as monitoring
         laboratory capacity prior to, during, and at the conclusion of the
         Program.




                                      – 21 –
II.            Administration and Oversight of the Program

          We reviewed OJP’s administration and oversight of the Program, and
          determined that weaknesses existed in three areas: 1) OJP issued
          second-year Program grants to states that had not drawn down any of
          their first-year Program grant funds by the time the new awards were
          issued; 2) the requirements instituted by the Program for contractor
          laboratories performing no-suspect casework analysis were
          inconsistent with those required for state and local laboratories
          performing no-suspect casework analysis; and 3) OJP failed to ensure
          that the federal funds granted under the Program will benefit the
          national DNA database. These weaknesses hinder the ability of
          Program management to maximize Program accomplishments and
          ensure consistent operational quality of laboratories funded for
          no-suspect casework analysis.

      In August 2001, OJP developed and issued Program requirements in
the Program Solicitation. The Program Solicitation specified general grant
guidelines and restrictions, as well as more specific requirements. Grantees
were required to ensure that all analyses of no-suspect cases under the
Program complied with the QAS, and that any profiles resulting from these
analyses be uploaded expeditiously to CODIS. Further, the grantees were to
ensure that their contracting laboratories:28                TP   PT




      •   are accredited by the American Society of Crime Laboratory
          Directors/Laboratory Accreditation Board (ASCLD/LAB), or certified by
          the National Forensic Science Technology Center (NFSTC);

      •   adhere to the most current QAS issued by the FBI Director;

      •        have a Technical Leader located onsite at the laboratory;

      •        provide quality data that can be easily reviewed and uploaded to
               CODIS;

      •        have the appropriate resources to screen evidence (if applicable); and

      •        only be paid for work that is actually performed.




          28
          TP    PT   See Appendix III for further information regarding Program specific requirements.



                                                    – 22 –
      We reviewed OJP’s administration and oversight of the Program to
determine if grants were made in accordance with applicable legislation, and
whether OJP adequately monitored grantee progress and compliance with
Program requirements. In addition, we assessed whether the Program-
specific requirements instituted by OJP fully supported the Program’s
mission. We identified the following weaknesses in OJP’s administration and
oversight of the Program.


Additional Funds Awarded to Grantees not Drawing Down Initial
Funds Timely

       In FY 2003, OJP awarded grants for the second year of the Program,
totaling $10.2 million, to six states that had drawn down none of their initial
awards, and to one state (New Mexico) that had drawn down less than
1 percent of its initial award, as of the date the second-year grants were
made. The initial awards to these seven states totaled $11.8 million.
Further, for six of the seven states, the applications requested funding for
purposes that were partially or completely identical to those identified in
their initial award application.29

                                   TABLE 3
               FY 2003 Program Awards to States Unable to
                     Timely Use FY 2001 Grant Funds

 State               FY 2001            FY 2001      FY 2003                 FY 2003
                    Award Date           Grant     Award Date                 Grant
                                        Amount                               Amount
 Maryland           09/05/2002          $5,048,669  09/24/2003               $2,072,362
 New York           09/20/2002           $5,039,535       09/16/2003         $5,482,020
 New Mexico         08/13/2002             $550,245       07/11/2003           $674,414
 Oklahoma           08/22/2002             $500,000       07/11/2003           $244,500
 New Jersey         08/07/2002             $286,805       06/10/2003         $1,272,254
 Nebraska           09/10/2002             $226,494       07/11/2003           $125,086
 Connecticut        08/05/2002             $117,163       09/10/2003           $346,758
 Total                                $11,768,911                         $10,217,394


      29
         We excluded from this analysis states that had begun to draw down more than
trace amounts of their grant funds by the time they were awarded their second-year grant.



                                         – 23 –
      The two largest grantees in the initial award, Maryland and New York,
had not drawn down any of their FY 2001 funds when OJP awarded them
second-year funding. As shown in the table, both states received their
second grant roughly a year after their initial award. Their applications for
the second-year funds requested resources to pay for similar transactions as
were funded in their initial award. For example, Maryland was funded in
FY 2001 for the outsourcing of 3,704 no-suspect cases. Similarly, OJP
awarded it funds for the outsourcing of an additional 500 no-suspect cases in
the FY 2003 award. In New York, three laboratories (Monroe, Nassau
Counties, and the New York State Police) received funding for the
outsourcing of cases in both FY 2001 and FY 2003.

       Oklahoma, Connecticut, and New Jersey also had not drawn down any
of their initial awards when they received second-year funding for activities
similar to the first year. We noted that New Jersey, in particular, received a
significant increase in its second-year grant even though it had failed to
establish a pattern of drawing down its first-year Program funds efficiently.
According to application documents, New Jersey requested this increase to
outsource a significantly larger number of no-suspect cases than was
requested in the first year (1,500 no-suspect cases in FY 2003 versus 220 in
FY 2001).

      While these states may have legitimate bases for requesting funding
for additional cases, based upon the number of cases in their backlog we
question OJP’s awarding additional funds to states that had failed to
establish a pattern of drawing down their current Program funds in a timely
manner.

      We noted that although Nebraska had not drawn down any of its initial
award at the time it received additional Program funding, unlike the previous
states mentioned, Nebraska significantly changed its funding request in its
FY 2003 grant application. The initial award was provided to pay for
personnel and consultant/contractual agreements so the Omaha Police
Department could outsource the analysis of no-suspect cases. The FY 2003
award funded equipment and supplies for the Nebraska State Patrol Crime
Laboratory to help it become ASCLD/LAB accredited. The significant
variance in its two application requests may have provided OJP with
appropriate justification for the FY 2003 grant award.

      We identified one instance in which OJP intervened with a grantee that
stated it was unable to draw down Program funds. OJP awarded an FY 2003



                                    – 24 –
grant to the city of Albuquerque, New Mexico, which, at the time of the grant
award, had drawn down less than 1 percent of its initial award. However,
after receiving the second Program grant, Albuquerque grantee management
communicated to OJP the significant problems it was experiencing in
expending its initial award funds, problems that did not appear reconcilable.
Consequently, OJP management began to take steps to de-obligate both
grants awarded to the city at the time of our fieldwork in May 2004.

       In light of these findings, we concluded that OJP should more closely
monitor previous grantees’ progress in using grant funds prior to awarding
additional funding. Further, we recommend that OJP continue to pursue
de-obligation of funds for Program grantees that have failed to draw down
their Program funds in a timely manner and are unable to provide
satisfactory evidence that they will do so in the near future.


Inconsistent Requirements for Laboratories Performing No-suspect
Casework Analysis

      As previously mentioned, the Solicitation issued by OJP to initiate the
Program included several requirements for outsourcing analyses to contract
laboratories.

      During initial audit fieldwork conducted in December 2003, we
determined that three of the six laboratories within the state of Ohio which
were participating in the grant as co-grantees did not meet the requirements
that were imposed upon the outsourcing or contract laboratories. The
primary differences between the requirements imposed on state or local
laboratories and contractor laboratories are that contractor laboratories are
required to be accredited/certified by ASCLD/LAB or NFSTC and are required
to have a technical leader onsite. We considered this to be a material
inconsistency in the Solicitation requirements, since these co-grantee
laboratories within the state of Ohio were being treated similarly to a
contract laboratory and were being reimbursed on a flat-fee basis for each
no-suspect case analyzed under the grant.

      Specifically, we found that the Canton-Stark County, Cuyahoga
County, and Mansfield Police Department laboratories all lacked either
accreditation or certification. In addition, we found that these same three
laboratories did not have a permanent technical leader onsite, even though
they did have a technical leader available to them for onsite consultation.
Since the requirements state that outsourcing laboratories must "have a



                                    – 25 –
technical leader that is located onsite at the laboratory where the testing is
being performed," we concluded that these laboratories do not meet this
requirement.

      We designed our fieldwork in the other grantee states, including
Florida, Texas, and New York, to include sufficient review to determine if
similar deficiencies were noted with the co-grantee participants in those
states. While we noted no exceptions in Florida or New York, we identified
the following conditions in Texas:

   •   For the TXDPS (Austin) laboratory, we found that the technical leader
       position had been vacant since November 2003. While the vacancy
       was posted, no one had been hired as of our fieldwork in March 2004,
       and the technical leader from the TXDPS’s Houston laboratory was also
       serving as the technical leader in Austin. The technical leader meets
       the qualification requirements for this position, but she was not onsite
       to accomplish her responsibilities at the TXDPS (Austin) laboratory.
       During this period, the laboratory was performing grant-funded
       in-house analysis of no-suspect cases.

   •   For the TXDPS (McAllen) laboratory, we found that the technical leader
       position has been vacant since July 2003. The technical leaders of the
       Corpus Christi (from July 2003 through February 2004) and Lubbock
       (from February 2004 to the present) laboratories have been available
       to provide technical oversight to the McAllen laboratory. While both
       meet the qualifications for being a technical leader, neither is located
       onsite. During this period, the TXDPS (McAllen) laboratory was
       performing grant-funded in-house analysis of no-suspect cases.

      None of the above-mentioned laboratories failed to meet the criteria
imposed by OJP for state and local laboratories (i.e., compliance with the
                                                  U   U




QAS), but they did fall short of the requirements that OJP imposes on
contractor laboratories (see page 22). However, as discussed previously, we
believe that all laboratories, whether state, local, or contractor, should be
held to the same standards.

      To assess whether similar conditions might exist at other laboratories,
we reviewed the grant files of the remaining 21 grantees to determine
whether they, or their co-grantees, were outsourcing the analysis of
no-suspect cases (making this issue not applicable for those laboratories) or
completing the analysis in-house. If a laboratory was completing the
analysis in-house, we reviewed the grant file records to determine, where



                                    – 26 –
possible, whether that laboratory was ASCLD/LAB accredited or NFSTC
certified, and whether the laboratory had an onsite technical leader. In most
instances, we were able to determine from OJP grant file documentation that
grantees and co-grantees in each state met these requirements.

       However, for the following states OJP grant file documentation was not
sufficient to indicate whether grantees and/or co-grantees doing in-house
analysis met the applicable requirements: Arizona, Delaware, Kansas,
Maine, Michigan, Missouri. We cite these states only as an indicator of the
number of grantees and co-grantees that, similar to the conditions in Ohio
and Texas, may not fully meet the same requirements being imposed upon
the contractor laboratories.

      We consider this to be a vulnerability within the Program’s
administration in that the level of scrutiny placed upon the contractor
laboratories is not similar to that placed upon the state and local
laboratories. Of particular concern is the issue of accreditation/certification.
A laboratory’s accreditation or certification signifies that an independent
external organization has confirmed the laboratory’s compliance with the
QAS and the overall quality of their operations. By not requiring Program
grantees to be accredited or certified, Program management have deprived
themselves of a valuable assurance of grantee compliance with Program
requirements, including compliance with the QAS, thereby hindering their
own administration of the Program. Therefore, we recommend that OJP
ensure that future Program Solicitations require all laboratories – whether
in-house or contractor – analyzing no-suspect cases to meet the same
accreditation/certification requirements.


Failure to Ensure Program Funding to Support the National DNA
Database

      In the process of collecting information to complete an analysis of
whether no-suspect cases were being uploaded into CODIS, we were
informed of a complication that had developed at the Fort Worth Police
Department (FWPD) that prevented the profiles resulting from their
grant-funded analysis from being uploaded to all levels of CODIS.

     Specifically, the FWPD – due to the closure of its DNA laboratory in
mid-2002 – had hired both an analysis contractor laboratory to analyze the
no-suspect cases and a data review contractor to review and upload the data




                                     – 27 –
to CODIS. The FWPD did not have CODIS access, nor were its staff qualified
to perform the data review of the analysis contractor’s results.

       In late December 2003, the TXDPS was informed by the FBI’s NDIS
Program Manager that the FWPD’s data review contractor, who did have
access to CODIS to upload missing person’s profiles, could no longer serve
as the agent in charge of uploading FWPD’s forensic profiles. Further, none
of the profiles that this contractor reviewed past the point of notification
could be uploaded without a separate review by staff of a CODIS-
participating public laboratory.

       However, at the time of our audit in March 2004, the FWPD was
continuing to use the services of the data review contractor laboratory since
the NDIS Program Manager’s decision did not prevent the profiles confirmed
and uploaded by that laboratory from being uploaded to SDIS (i.e., the state
level of CODIS). Consequently, the profiles were still searchable and could
therefore provide aid to investigations within the state.

       The Solicitation for the Program did not clearly specify that
laboratories are required to upload grant-funded profiles to NDIS (i.e., the
national level of CODIS), if complete results are obtained. Rather, the
Solicitation required that the grantees include in their applications a plan for,
among other things, submission of profiles that result from grant-funded
analysis to CODIS. Since “CODIS” is a term used generically to convey the
entire database system of indexes at the local, state, and national levels, a
grantee could argue that upload of profiles only to the local level, or to the
local and state levels, meets the requirements of the Solicitation. In fact,
FWPD management made such an argument to us regarding the profiles that
resulted from the grant-funded analyses completed.

       We disagree with such a conclusion. While the Solicitation and the
DNA Analysis Backlog Elimination Act of 2000 make references to CODIS, we
believe that federal funds awarded by OJP should be used for analysis when
all viable (i.e., complete and allowable) resulting profiles will be uploaded to
NDIS, thereby contributing to the crime-solving potential of the national
database. Therefore, we encourage OJP to develop future Solicitations to
clarify that the expectation of grantees is ultimately to upload all viable
grant-funded profiles to NDIS.

     Further, we recommend that OJP verify that the TXDPS has
implemented the necessary measures to ensure that the FWPD’s




                                     – 28 –
grant-funded profiles eventually will be uploaded to NDIS. The FWPD’s
Laboratory Manager stated during our fieldwork in March 2004 that he was
aware that action would need to be taken to ensure that the profiles were
uploaded to NDIS. However, he stated that the issue was much larger than
just his laboratory, since he would most likely need to rely on assistance
from another local laboratory within the state to perform the reviews for
him. In addition, he said he would need assistance from the Texas CODIS
Administrator to resolve the issue.

       According to communications we have had with both the FWPD and
the TXDPS since that time, the Manager of Field Laboratories at the TXDPS
has begun action to resolve this matter. The resolution underway uses grant
funds to hire a contract worker to review and upload to CODIS the profiles
that were analyzed by Orchid Cellmark (Dallas) for the FWPD under its
participation in the Program grant. This corrective action is to our
satisfaction, since it will ensure that profiles are uploaded to NDIS, not just
to SDIS. However, OJP should ensure that such resolution is completed.


Recommendations

      We recommend that OJP:

5.    Monitor grantees’ progress in drawing down grant funds prior to
      awarding them additional funding, and closely examine the reasons
      additional funding is requested. If funding is awarded, a justification
      supporting the decision should be carefully documented, specifically
      addressing the rationale for the untimely drawdowns.

6.    De-obligate funds for Program grantees that have failed to draw down
      their Program funds in a timely manner and are unable to provide
      satisfactory evidence that they will be able to do so in the near future.

7.    Ensure that Program requirements in future years stipulate that all
      laboratories analyzing no-suspect cases to meet the same
      accreditation/certification requirements, regardless of whether the
      laboratory is private or public.

8.    Ensure that future Solicitations clarify that the expectation of grantees
      is ultimately to upload all viable grant-funded profiles to NDIS.




                                    – 29 –
9.   Verify that the TXDPS has implemented the necessary measures to
     ensure that the Fort Worth Police Department’s grant-funded profiles
     will be uploaded to NDIS.




                                  – 30 –
III. Grantee Oversight of Contractor Laboratories

      In assessing the adequacy of grantee oversight of contractor
      laboratories, we identified four laboratories that had inadequate
      documentation to substantiate that oversight of their contractor
      laboratory met Program requirements. Six laboratories also had
      incomplete or outdated policies or procedures relating to the
      outsourcing of no-suspect cases. Without complete and current
      documented policies or procedures, laboratory management cannot
      ensure that all appropriate staff comply with established methods, and
      management is hindered in its ability to detect and respond to issues
      of non-compliance.

       The structure of the Program places oversight responsibility on each
grantee, whether that grantee is a primary or co-grantee, for any contractor
laboratory it uses as part of its participation in the grant. Such oversight
includes ensuring the adequacy of policies and procedures related to the
outsourcing of no-suspect casework evidence by its own laboratory and by
its contractor laboratory. Therefore, throughout this section we refer to
primary grantees and co-grantees as simply “grantees.” Our audits
assessed the adequacy of grantee oversight of their contractors, as well as
verification of the compliance and handling of no-suspect cases at various
contractor laboratories.


Inadequate Contractor Oversight Documentation

      The QAS require that laboratories conduct certain oversight of their
contractor laboratories, and the extent of these activities varies between
laboratories that are outsourcing casework analysis and those outsourcing
analysis of convicted offender samples. For casework analysis, the QAS
require that laboratories:

  •   Ensure that the contractor laboratory certifies its compliance with the
      QAS. This requirement is contained within Standard 17.1. According
      to the FBI, the contractor laboratory must submit to annual audits to
      ensure compliance with the QAS, and must make the results of those
      audits available to the laboratories for which they perform analysis
      work.

  •   Establish and use review procedures to verify the integrity of the data
      received from the contractor laboratory. This requirement is contained



                                    – 31 –
      within Standard 17.1.1. The procedures implemented to comply with
      this requirement must include a review of the data received from the
      contractor, similar to the type of review that is conducted on the
      laboratory’s own analysis results. In addition, according to guidance
      provided by the FBI regarding compliance with the QAS, an onsite visit
      should be conducted to verify the contractor laboratory’s ability to
      provide quality data. These onsite visits should include an evaluation
      of any findings detected during the last audit of compliance with the
      QAS to ensure that all deficiencies noted were satisfactorily resolved.

       Of the grantees we audited, we identified four that were outsourcing
their no-suspect case analysis to contractor laboratories and that were
unable to supply us with sufficient documentation to substantiate that they
had met the QAS requirements for contractor oversight.

  •   The Ohio BCI&I was unable to provide us with documentation that an
      onsite visit meeting the FBI’s guidance was conducted as of the time of
      our fieldwork in December 2003. Specifically, the Grant Manager
      provided us with confirmation that an onsite visit was conducted, but
      that visit did not include a review of audit results to ensure that the
      contractor laboratory was fully complying with QAS requirements.
      Ohio laboratory management agreed with our assessment, and
      following our audit the Grant Manager provided us with documentation
      that an onsite visit meeting the requirements of the QAS was
      conducted. This documentation satisfactorily addressed this finding,
      and therefore we make no further recommendation regarding this
      deficiency.

  •   The FDLE’s Jacksonville Regional Operations Center DNA Laboratory, a
      co-grantee of the grant awarded to FDLE Headquarters in Tallahassee
      had no documentation that an onsite visit of their contractor laboratory
      had been performed. The DNA Supervisor stated that she assumed
      one was performed by FDLE Headquarters in Tallahassee since the
      contract that exists between FDLE and the contractor was
      implemented by the Tallahassee office. The Jacksonville DNA
      Supervisor could not say when the site visit might have been
      conducted, since she had been provided with no documentation of the
      visit, nor had she requested any.

      While the contract that exists between FDLE and the contractor
      laboratory may have been handled by FDLE Headquarters, records
      from each FDLE laboratory utilizing that contract must contain



                                   – 32 –
    sufficient documentation to substantiate that the oversight of the
    contractor laboratory required by the QAS has been performed.
    Grantee management in both FDLE’s Tallahassee and Jacksonville
    locations agreed with this assessment, and stated that they would take
    appropriate corrective action.

    Subsequent to our audit, the Supervisor of the Jacksonville DNA
    Laboratory provided us with the onsite visit reports supplied to her by
    the FDLE Investigative and Forensic Science Services Director in
    Tallahassee documenting that onsite visits had been conducted in
    2002 and 2004. These reports, and the fact that the Jacksonville DNA
    Laboratory Supervisor now has the documentation of onsite visits
    conducted, satisfactorily addresses our Jacksonville audit finding.
    Therefore, no further recommendation will be made regarding the
    Jacksonville DNA Laboratory. However, we recommend that the FDLE
    Tallahassee Investigative and Forensic Science Services management
    implement a policy that will ensure documentation is provided to
    relevant FDLE system laboratories regarding contractor oversight in
    the future.

•   The Fort Worth Police Department, a co-grantee of the grant awarded
    to the TXDPS, had incomplete documentation to substantiate that its
    contractor laboratory complied with the QAS. At the time we
    conducted our audit in March 2004, the Laboratory Director, who was
    not in his current position when the outsourcing contract was
    implemented, was able to locate an onsite visit report from April 2002,
    copies of protocols and procedures that were supplied to them at the
    start of the contract, and accreditation documentation. However, this
    documentation contained no indication of a review of the contractor’s
    QAS audits, or any indication that the contractor’s on-going
    compliance with the QAS had been confirmed.

•   The Houston Police Department, a co-grantee of the grant awarded to
    the TXDPS, could not produce sufficient documentation that an onsite
    visit of its contractor laboratory meeting the requirements of the QAS
    had been conducted. Travel vouchers for a site visit to the contractor
    laboratory were provided, but no site visit report could be located.
    Therefore, we could not determine whether the site visit included the
    level of review required by the QAS.




                                 – 33 –
Incomplete or Outdated Policies and Procedures

      In addition to reviewing supporting documentation of contractor
oversight, we also reviewed the policies and procedures in place that govern
the transfer of evidence between the grantee laboratories and the contractor
laboratories, and the tracking, safeguarding, and analysis of that evidence.
We specifically examined whether sufficient policies and procedures were in
place to ensure that the chain-of-custody was properly maintained
throughout the transfer process, and to ensure that the policies, procedures,
and facilities governing the storage, analysis, and tracking of the evidence
were consistent with the QAS Sections 6 (Facilities) and 7 (Evidence
Handling). Among other requirements contained in these sections, the QAS
require a laboratory to have a facility that is designed to provide adequate
security and minimize contamination (Standard 6.1), and to have and follow
a documented evidence control system to ensure the integrity of physical
evidence (Standard 7.1).30

      Our audits revealed that three grantee laboratories and three
contractor laboratories had incomplete or outdated policies or procedures
regarding either chain-of-custody or evidence handling.


Grantee Laboratory Deficiencies


       Florida Department of Law Enforcement, Jacksonville Regional
       Operations Center

             We found that the FDLE Jacksonville Regional Operations Center
       DNA Laboratory had an evidence control system. However, while the
       system appeared adequate to address the processing of evidence
       within the laboratory, it did not contain any specific guidance for the
       outsourcing process.

              For example, the system did not contain evidence-handling
       policies that clearly described how the samples were being packaged

       30
           While our audit work was designed to review whether policies existed, we were
dependent upon laboratory staff and management descriptions of procedures in use for an
indication of the actual practices within the laboratory. Therefore, while we could confirm
whether appropriate policies and procedures were in place, we could not attest to the on-
going practices of staff within the laboratory.




                                          – 34 –
by the DNA section for submission to the contractor laboratory, or how
the chain-of-custody documentation was being maintained. Also, the
electronic-evidence tracking system was not designed to permit
employees to check evidence out of the system and submit them to
the contractor for analysis. Instead, according to laboratory
management, the tracking system stated that each outsourced item
had been "returned to the submitter," which was the only option
programmed into the computer for instances when evidence was
leaving the laboratory. The laboratory had manual documentation to
account for the chain-of-custody, but without a policy explaining how
this was being handled it was not clear how the chain-of-custody had
been accounted for.

      Laboratory management cannot ensure that staff know and
comply with the established procedures unless those procedures have
been formalized in writing for staff reference. Therefore, while the
procedures described to us for the outsourcing process appeared
adequate to prevent loss or abuse to the evidence during this process,
we recommend that these procedures be described fully in a formally
approved and implemented written policy.


Nassau County Police Department

       As co-grantees of the Program grant to the New York State
DCJS, the Nassau County Police Department (NCPD), in cooperation
with the Nassau County Office of the Medical Examiner (OCME),
outsourced no-suspect cases to Orchid Cellmark in Germantown,
Maryland. The outsourcing was handled so that the evidence was sent
directly from the NCPD to the contractor, and the results of the
analysis were reviewed by the OCME. Based upon these
arrangements, the evidence handling portion of our audit was
conducted strictly at the NCPD.

      Various procedures for tracking, handling, and storing the
evidence were described to us by NCPD staff while we physically
reviewed their facilities. These procedures appeared to be sufficient to
account for and safeguard the evidence that was being outsourced,
both prior to being sent out to the contractor and after it was returned
by the contractor.




                             – 35 –
       However, we were not able to locate all of these procedures in
documented policies. We were provided with evidence handling
policies that constitute the laboratory’s evidence control system
required by QAS 7.1, but these policies did not detail all of the
procedures staff stated were in use to minimize contamination and
document the details of evidence being sent to the contractor.
Further, those policies do not reflect the current electronic evidence
tracking system in place. The laboratory did have separate procedures
– albeit not formally completed – for the use of the electronic evidence
tracking system. However, laboratory management cannot ensure
that staff know and comply with the established procedures unless
those procedures have been formalized in writing for reference.

     We recommend that all the current procedures in use in the
outsourcing of no-suspect casework evidence be described in detail in
formalized written policies.


Houston Police Department

      The Houston Police Department’s evidence control system did
not address the policies or procedures used when transferring
evidence between its laboratory and the contractor laboratory. We
asked the Assistant Laboratory Director about these policies and
procedures, and she responded that while the laboratory has
procedures for this process, they are not contained in the current
formalized policies. She further provided us with a written description
of the procedures in use, as well as a form that is used to document
the chain-of-custody of evidence items being sent to and received
from the contractor laboratory.

       In reviewing the procedures described by the Assistant
Laboratory Director, the procedures appear generally sufficient to
address evidence to the contractor laboratory. However, they lack
detail regarding the process followed when the evidence is returned.
Further, the procedures must be formalized in writing for laboratory
management to be able to ensure that all staff comply with them.

      Therefore, we recommend that a comprehensive written policy
be developed that contains all aspects of the outsourcing transfer of
evidence, and that such a policy be formally approved and
implemented.



                             – 36 –
Contractor Laboratory Deficiencies


     The Bode Technology Group, Inc.

           The Bode Technology Group, Inc.’s, (Bode) chain-of-custody
     policy, part of its compliance with QAS 7.1, appeared adequate to
     track the movement of evidence within the laboratory. However, we
     determined that the way in which staff are applying their
     chain-of-custody policy is not sufficient to adequately document
     transfers within the laboratory.

           Specifically, the policy states that when a case has been
     processed it must be repackaged and returned to the custody of the
     Evidence Custodian. While this is being done in practice, the
     documentation does not reflect this transfer. Instead, the
     documentation shows that the laboratory personnel still have custody
     of the items, even while the items are in the Evidence Custodian’s
     custody and control and, therefore inaccessible to laboratory
     personnel. While this situation does not pose a concern as to the
     safety or security of the evidence, it does pose a concern for the
     complete documentation of evidence movements in the
     chain-of-custody documentation maintained for casework clients.

           In discussing this issue with Bode management, they agreed
     with our finding. After our audit in January 2004, Bode personnel
     provided us with documentation that staff had been informed of the
     new procedure requiring them to formally return custody to the
     Evidence Custodian on the chain-of-custody form. They also provided
     us with copies of the new Standard Operating Procedures (SOPs)
     governing chain-of-custody, that include clarification of the policy. We
     consider this documentation sufficient to address this deficiency and
     therefore make no further recommendation regarding Bode’s
     chain-of-custody procedures.

           In addition, we could not determine from a review of Bode’s
     evidence control system which of the evidence handling SOPs applied
     to the high-throughput (i.e., high-volume) casework environment
     under which the no-suspect cases are processed. For example,
     despite a protocol for Photographing of Evidence, in the laboratory tour
     it was obvious from what we observed and were told that the




                                     – 37 –
high-throughput casework items are not photographed. Consequently,
it is not clear whether compliance weaknesses might exist in those
areas where staff practices are inconsistent with a policy, since that
policy may or may not apply to the high-throughput casework
environment.

      Management agreed with this finding, and following our audit
provided to us a revised Forensic Evidence Handling SOP that clarified
which of the procedures applied to individual casework and which were
applicable to all casework, including high-throughput. We consider
this documentation sufficient to address this deficiency and therefore
make no further recommendation regarding Bode’s evidence handling
procedures.

       Finally, we found that Bode’s policies and procedures for cleaning
and decontamination of the laboratory (in compliance with QAS 6.1,
among other requirements) appeared to adequately address these
topics, with one minor exception. The laboratory contains a windowed
cutout in the wall, also referred to as a pass-through, between the
pre-amplification room (considered a “clean” area) and the
post-amplification room (considered a non-“clean” area). The
pass-through allows transference of tube trays between the two rooms
with minimal risk of cross-contamination or transfer. There were no
policies or procedures regarding the cleaning of the pass-through.
While this poses a limited risk to the laboratory, since contamination
incidents are tracked that would reveal whether the pass-through area
has caused contamination problems, we consider this to be a point of
inconsistency with the remainder of their policies. Therefore, we
recommended Bode management implement a policy for the cleaning
of the pass-through, and they agreed that such a policy would be
implemented.


Orchid Cellmark, Germantown, Maryland

      Our examination of procedures of the Orchid Cellmark
Laboratory in Germantown, Maryland, revealed that while the
laboratory had an evidence control system as required by QAS 7.1,
actual practices of staff were inadequate to ensure that evidence is
properly secured immediately after it is delivered to the laboratory.
Specifically, evidence arriving at the lab is received into the reception
area, which is accessible to the general public. After the item is



                              – 38 –
logged in by the receptionist, the item is not immediately secured or
moved to a limited access area. Further, we observed that there are
times when the receptionist takes a short break and the reception area
may be briefly unattended.

      While management acknowledged this latter situation, they
stated that for breaks of any length someone fills in for the
receptionist. Our observations during fieldwork supported this
assertion. In addition, management stated that they would be able to
hear from their offices – which adjoin the reception area – when the
door clicks open to signify that someone has entered, and would check
on the situation if the receptionist was momentarily absent. However,
we question whether the security of the evidence should rely upon
such methods.

      Therefore, while we acknowledge that the evidence packages
arrive sealed, and while we acknowledge that the reception area is
generally monitored by someone who is physically present, we believe
that Orchid Cellmark’s evidence storage policies would be
strengthened by requiring that evidence, after being received and
logged in by the receptionist, be immediately placed in a
limited-access or secure area while awaiting the attention of technical
personnel.


Orchid Cellmark, Dallas, Texas

       We found that Orchid Cellmark (Dallas) policies and procedures
for cleaning and decontamination of the laboratory (in compliance with
QAS 6.1, among other requirements) appeared to adequately address
these topics, with one minor exception. The laboratory contains a
pass-through, similar to the one described previously at Bode, that
allows transference of tube trays between the pre-amplification room
and the post-amplification room. In addition, the pass-through is
equipped with ultra-violet light that can be switched on to
decontaminate the pass-through. However, we noted that there were
no policies or procedures requiring the use of the ultra-violet light, nor
an indication of how frequently this should occur.

      As with Bode, the omission of this information from the policies
poses a limited contamination risk to the laboratory. As with Bode, we
consider this to be a point of inconsistency with the remainder of its



                              – 39 –
      policies. Therefore, we advised Orchid Cellmark management to
      implement a policy for the cleaning of the pass-through, and they
      agreed that they would implement such a policy.


Recommendations

      Our recommendations below reflect the structure of the Program in
which the primary grantee in each state serves as a liaison between OJP and
the co-grantees. Therefore, our recommendations to correct deficiencies at
co-grantee laboratories are directed to each state’s primary grantee.

       Further, contractor laboratory deficiencies must be resolved by a
grantee laboratory that used the services of that contractor laboratory, a
fact also reflected in our recommendations. Therefore, we addressed our
recommendations for contractor laboratories to selected grantee personnel.

      We recommend that OJP:

Florida

10.   Ensure the FDLE, Investigative and Forensic Science Services,
      Tallahassee, implements a policy to routinely distribute a copy of
      contractor oversight documentation to all laboratories participating in
      its outsourcing contracts;

11.   Require the FDLE, Investigative and Forensic Science Services,
      Tallahassee, to ensure that the Jacksonville Regional Operations
      Center, as a co-grantee of the grant made to Florida, create a
      comprehensive policy that will contain current procedures in use for
      the outsourcing of no-suspect casework evidence, and formally
      approve and implement that policy;

12.   Require the FDLE, Investigative and Forensic Science Services,
      Tallahassee, to ensure that the Bode Technology Group implements a
      policy for the cleaning of the pass-through that exists between the
      pre-amplification and post-amplification areas;




                                    – 40 –
Texas

13.     Require the TXDPS to ensure that the Fort Worth Police Department,
        as a co-grantee of the grant made to Texas, begin maintaining records
        to substantiate their vendor's on-going compliance with the QAS;

14.     Require the TXDPS to ensure that the Houston Police Department, as a
        co-grantee of the grant made to Texas, completes and documents an
        onsite visit to their contractor laboratory sufficient to meet the
        requirements of the QAS;

15.     Require the TXDPS to ensure that the Houston Police Department, as a
        co-grantee of the grant made to Texas, create a comprehensive policy
        that will contain current procedures in use for the outsourcing of
        no-suspect casework evidence, and formally approve and implement
        that policy;

16.     Require the TXDPS, through the Fort Worth Police Department, as a
        co-grantee of the grant made to Texas, to ensure that Orchid Cellmark
        in Dallas, Texas, implements a policy for the cleaning of the
        pass-through that exists between the pre-amplification and post-
        amplification areas;


New York

17.     Require the New York State DCJS to ensure that the NCPD, as a
        co-grantee of the grant made to New York, create a comprehensive
        policy that will contain current procedures in use for the outsourcing of
        no-suspect casework evidence, and formally approve and implement
        that policy, and

18.     Require the New York State DCJS to ensure that Orchid Cellmark in
        Germantown, Maryland, implements a policy requiring that evidence,
        after being received and logged in by the receptionist, is immediately
        placed in a limited access or secure area while awaiting the attention
        of technical personnel.




                                      – 41 –
IV.   Allowability of Costs Charged to Program Awards

      We assessed the allowability of costs charged to Program awards by
      the four grantees we audited. While we found that they materially
      complied with most award requirements, we noted small deficiencies
      at all four grantees, and found costs charged to Program awards that
      were unallowable and/or unsupported. As a result, we questioned
      costs of $111,297, out of a total of approximately $13.5 million
      awarded, and made 9 recommendations. In addition, we assessed
      whether selected grantees/co-grantees complied with Solicitation
      requirements pertaining to costs being paid to contractor laboratories
      and found that one co-grantee was overpaying for the services
      received from its contractor laboratory. Consequently, we questioned
      $44,640 in costs that were unallowable out of a total award of
      approximately $5 million.

      The first year of the Program was designed to provide states with
funds to analyze no-suspect casework DNA profiles, either through in-house
analysis or outsourcing, and to build laboratory capacity. We selected four
grantees, conducted separate grant audits for each of the grantees, and
issued separate audit reports.31 The selection of the grantees was based on
the award amount and on the amount of funds drawn down as of the start of
our audit. We selected the following four grantees to audit: 1) Ohio Bureau
of Criminal Identification and Investigation (Ohio BCI&I), 2) Texas
Department of Public Safety (TXDPS), 3) Florida Department of Law
Enforcement (FDLE), and 4) New York State Division of Criminal Justice
Services (DCJS). In addition, at each of these locations we conducted an
analysis of whether selected grantees/co-grantees complied with Solicitation
requirements pertaining to costs being paid to contractor laboratories. The
specific work conducted at each site, including the scope and methodology of
each audit, is detailed in Appendix I of this report.

      The four grantees received a total of approximately $13.5 million to
analyze 10,874 no-suspect cases and to build capacity in their labs. As of
May 31, 2004, these grantees had drawn down approximately $5.9 million,
or 44 percent of their awarded funds. The following is a summary of the
findings from each of the audits of these four grantees.




      31
           Audit reports issued are identified in Appendix I of this report.



                                            – 42 –
Ohio Bureau of Criminal Identification and Investigation

      The Ohio BC&I is a division within the State of Ohio, Office of the
Attorney General. The Ohio BCI&I was awarded $2,254,088 to analyze
3,068 no-suspect cases, to purchase supplies and equipment, and to identify
old no-suspect cases for testing.

      We reviewed the Ohio BCI&I’s records to determine whether costs
claimed for reimbursement were allowable, supported, and in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the
award.

      Our audit revealed that the Ohio BCI&I charged some unallowable
costs to the award and did not have proper documentation to support all
expenditures. As a result, we questioned $106,755 in costs that were
unsupported or unallowable, or approximately 5 percent of the total funds
awarded. Additionally, we noted that required financial status reports were
not always submitted timely. We also found that the grantee received
drawdowns of funds in excess of their immediate disbursement
requirements.


Unsupported Costs

      Salaries and fringe benefits for overtime worked on no-suspect
casework were authorized to be paid from the award. In turn, the Ohio
BCI&I utilized co-grantees within the state of Ohio to accomplish the goals
outlined in their Program proposal. The Canton-Stark County Crime
Laboratory (Canton-Stark), one of the co-grantees, was approved and
reimbursed by the Ohio BCI&I for a total of $110,000. The funds for
Canton-Stark were originally budgeted under the supplies budget category,
but were altered by Grant Adjustment Notice (GAN) 8 at the request of
Canton-Stark, which reallocated $95,497 from supplies to the personnel and
fringe benefits budget category. However, after reviewing the personnel
records, we found support for only $20,297 of the $95,497, resulting in
questioned costs of $75,200.

      The Miami Valley Regional Crime Laboratory (Miami Valley), another
co-grantee used by the Ohio BCI&I, was authorized in the grantee’s budget
worksheet to pay overtime in the amount of $8,000 for the analysis of
no-suspect cases. At the time of our audit, Miami Valley had been
reimbursed a total of $8,000 for overtime by the Ohio BCI&I. After



                                   – 43 –
reviewing the payroll records, we found support for only $5,102 of the
$8,000, resulting in questioned costs of $2,898.

      In addition, we questioned $5,009 in unsupported costs charged to the
award. Canton-Stark was reimbursed $14,503 for supplies by the Ohio
BCI&I. Using information we received from Canton-Stark, we concluded that
they had only spent $9,494 on allowable supplies relating to the testing of
no-suspect cases. As a result, we questioned the remaining $5,009 as
unsupported.


Unallowable Costs

      We found one transaction for $23,648 that was unallowable. The
grantee purchased 20,000 buccal swabs from Bode with $23,648 of the
award funds, but this purchase was not approved in the budget and these
items do not relate to functions performed under this Program.


Untimely Financial Status Reports

      We examined the Financial Status Reports (FSR), which contain the
actual expenditures and unliquidated obligations incurred for an award on a
quarterly and cumulative basis. The Financial Status Reports must be filed
within 45 days of the end of the most recent past quarterly reporting period.
We reviewed FSRs for timeliness and accuracy, and found that 4 of 5 FSRs
were submitted between 5 and 19 days late.


Excess Drawdowns

       Our review of the total expenditures compared to drawdowns for the
award found that the Ohio BCI&I had excess award funds totaling $201,674
on hand as of April 29, 2003. As of June 18, 2003, the Ohio had excess
award funds on hand totaling $236,578. Prior to our audit, the grantee
realized that its methodology for drawing down funds was incorrect, and
beginning in October 2003, it began to make smaller and more frequent
drawdowns. Therefore, we did not make any recommendations regarding
this matter.




                                    – 44 –
Texas Department of Public Safety

      The TXDPS was awarded $3,379,688 to analyze 3,160 no-suspect
cases, and to pay for overtime, consultants for in-house analysis, and for
outsourcing. In addition, funds were awarded to purchase equipment and
supplies.

       We reviewed the TXDPS’s records to determine whether costs claimed
for reimbursement were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
award. We found that one Financial Status Report was inaccurate.


Inaccurate Financial Status Report

      We reviewed the FSRs submitted for the period August 1, 2002,
through December 31, 2003, for accuracy and timeliness. While the reports
were submitted in a timely manner, one of the six reports reviewed
incorrectly stated the total outlays.

      The FSRs for the quarters ending December 2002 and December 2003
were overstated by $1,435 and $80,033, respectively. The FSRs for the
quarters ending March, June, and September 2003 were understated by
$346, $70, and $40, respectively. The TXDPS provided documentation
showing that, with the exception of the December 2003 FSR, the
discrepancies were due to temporary timing differences relating to when
benefit expenditures were posted. In addition, the TXDPS did not agree that
the FSR for the fourth quarter of 2003 was overstated by $80,033, but they
agreed that the report was incorrect and submitted a revised report in
May 2004.


Florida Department of Law Enforcement

       The FDLE was awarded $2,795,086 to reduce the backlog of
no-suspect cases in state and county crime laboratories, to analyze those
cases using the 13 CODIS core loci, to expedite the entry of the resultant
profiles into state and national CODIS networks, and to increase Florida’s
DNA analysis production capability and capacity. Included in this amount
was funding for the outsourcing of over 1,500 no-suspect cases, and funds
to purchase equipment and supplies.




                                     – 45 –
       We reviewed the FDLE’s records to determine whether costs claimed
for reimbursement were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
award.

      Our audit revealed that the FDLE charged relatively small unallowable
costs to the award. As a result, we questioned $4,542 or less than
0.2 percent of the total award. We also found that progress reports did not
always accurately reflect actual Program activities. Finally, we noted a
reportable condition relating to management controls over the approval of
invoices from contractor laboratories.


Unallowable Costs

       We found unallowable costs charged to the award by four co-grantees.
First, the Broward County Sheriff’s Office Crime Laboratory exceeded its
allowable costs for salary and fringe benefits by $1,932 for five positions
that were not in its approved budget.

      Second, the Miami-Dade Police Department submitted a
reimbursement request for equipment totaling $184 that was not approved
by the Forensic Services Director. Also, a transaction totaling $100 was
unallowable because the items purchased were not approved in the budget
worksheet and were not related to functions performed under the award.

      Third, a transaction totaling $786 charged by the Palm Beach County
Sheriff’s Office Crime Laboratory was unallowable because the purchased
items were not approved in the budget worksheet and were not related to
functions performed under the award. Specifically, the Sheriff’s Office
purchased a file cabinet for $241, office supplies for $469, and ink cartridges
for $76.

      Finally, a transaction totaling $1,540 charged to the award by the
Indian River Community College Crime Laboratory was unallowable because
the purchases were not approved in the budget worksheet. Specifically, the
laboratory purchased a TLS PC Link Labeling System for $1,175, biodyne
membrane for $214, and chemiluminescence reagent for $151.




                                    – 46 –
Inaccurate Progress Reports

      We noted that the progress report for the period ending
June 30, 2003, understated the number of CODIS hits by 14. In addition,
the progress report for the period ending December 31, 2003: 1) overstated
the number of cases outsourced to contractor laboratories by 1,867;
2) understated the number of cases uploaded into CODIS by 62 cases; and
3) overstated the number of CODIS hits by 16. Grantee officials concurred
and stated that they would ensure that future reports were accurate.


Inadequate Controls Over Contractor Invoice Approval

      We noted that FDLE’s management controls over the approval of
invoices from contractor laboratories were inadequate. Prior to our audit,
FDLE officials did not have adequate procedures in place to ensure that the
FDLE was charged only for the portion of work actually completed by
contractor laboratories. During the audit, the Forensic Services Director
revised the procedures to ensure that the FDLE was paying only for services
actually performed by each contractor laboratory. Under the revised
procedures, each Serology Supervisor is required to verify and certify each
invoice for payment before the contractor laboratories are paid.


New York State Division of Criminal Justice Services

       The New York State DCJS is the principal coordinating agency for
criminal justice activities in the state of New York. The DCJS was awarded
$5,039,535 to analyze 3,146 no-suspect cases, to upload the resulting
profiles to CODIS, and to compare the profiles to the CODIS convicted
offender database. Included in the award was funding for overtime,
consultants for in-house analysis and for outsourcing, and equipment and
supplies.

       We reviewed the DCJS’s records to determine whether costs claimed
for reimbursement were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
award.

     Our audit revealed that the FSRs submitted to OJP did not always
accurately reflect actual cumulative outlays. In addition, we found that the



                                   – 47 –
budget information submitted by one of the co-grantees was inadequate.
Finally, we determined that billing arrangements between a co-grantee of
the Program award to DCJS and its contractor laboratory were not consistent
with Program requirements.


Inaccurate Financial Status Reports

      We reviewed the four FSRs submitted by the DCJS and found the
reports were submitted in a timely manner. However, we found that the
FSRs underreported cumulative outlays incurred.

       Underreporting outlays occurred because some of the state’s
co-grantees did not report outlays to the DCJS in a timely manner. The
DCJS acts as the executive agent for all of the state’s co-grantees. Each
quarter the DCJS completes and forwards to the NIJ a consolidated FSR for
all of the state’s co-grantees, which the DCJS relies on for the outlay
information submitted. The co-grantees report outlays on a state financial
reporting form that is similar to the federal FSR. In order for the federal FSR
to be accurate, the state financial reporting form must be submitted in a
timely manner so that co-grantee’s outlays can be accurately reported on
the federal FSR.

      The DCJS reported cumulative total outlays of $392,187 on the federal
FSR for the period ending December 31, 2003. At the time of our audit, we
found that seven co-grantees reported award outlays on the state’s financial
reporting form. Of the seven co-grantees reporting outlays as of
December 31, 2003, three did not report outlays in a timely manner to the
DCJS. As a result, we found cumulative total outlays on the federal FSR for
the period ending December 31, 2003, to be $681,390.


Inadequate Budget Documentation

      We reviewed the financial records of each co-grantee and found that
one had approved budget documentation that included only one rate of pay
for personnel. However, we found expenditures for several different
personnel categories. Therefore, we were unable to establish whether the
personnel expenditures were approved in the co-grantee’s budget and, as a
result, we could not determine if that co-grantee accurately expended award
funds.




                                    – 48 –
Unallowable Costs

      One aspect of our overall assessment of grant activities was to review
controls over payments made to contractor laboratories, particularly with a
focus on compliance with the Program Solicitation, which requires that state
applicants ensure that their contractor laboratories are paid for only the
portion of the work that they perform. The Solicitation further states that:
“funds from the Program cannot be used to pay laboratories for fully
processing samples when certain steps (in the analysis process) were not
performed. . . . The compensation given to the outsourcing laboratory
should be fair, and directly reflect the effort and cost put forth by the
laboratory in processing the case/sample.”

      While completing this portion of our work, we determined that one
laboratory, a co-grantee under the grant awarded to the DCJS, was
overcharged for the work that was actually performed by their contractor.
Specifically, OJP approved the DCJS and co-grantees to pay a flat rate per
case for cases processed by their contractor laboratories, with the limitation
that the cases would be screened by the grantee laboratories.32 One of
these co-grantees was the Nassau County Police Department (NCPD).
However, during the delay between New York’s Program application and its
award, the operations of the NCPD had changed so that by the time of the
award they no longer had the proper facilities or staff to screen the evidence
themselves. Consequently, the NCPD began sending out unscreened
evidence to the contractor for the no-suspect cases funded under the
Program.

      In addition, the NCPD worked in cooperation with the Nassau County
OCME to complete the outsourcing process: the OCME was responsible for
overseeing interactions (e.g., QAS oversight and billing) and reviewing the
contractor’s data. These cases were sent out under a contract that had been
negotiated and administered prior to the Program award by the New York
State Police. Since the OCME did not directly negotiate a price structure
with the contractor, that structure did not reflect that the OCME was not
screening their cases. Consequently, the OCME cases that were screened
and determined to be negative for DNA were being charged the same price

       32
          To screen a case requires a laboratory to determine, through visual inspection
and/or preliminary tests, which case samples are most likely to yield sufficient DNA for
successful analysis. Screening the cases prior to sending them to a contractor laboratory
generally means that there will be a greater level of success during analysis in obtaining a
DNA profile from each sample.



                                           – 49 –
as the cases where complete analysis was required and full results obtained.
At the time we conducted our audit work in April 2004, the OCME had paid
for complete DNA analysis for 48 cases that, in actuality, were only
screened.

       Since laboratories are not required by the Solicitation to perform all
screening in-house, we were concerned that the NCPD was paying a flat-fee
for cases analyzed, regardless of whether full analysis was completed. Such
an arrangement violates the Program Solicitation requirements and
limitations on contractor payments. In addition, the high percentage of
these cases that were negative for DNA added greater emphasis to this
issue. We determined that analysis for 51 percent of the cases outsourced
at the time of our fieldwork in April 2004 could not be completed due to
insufficient DNA.

       Therefore, we questioned $44,640 as unallowable costs for the 48
cases for which the contractor had been paid for complete analysis when
only screening was performed.33 In discussing this with the DNA laboratory
management at the OCME, we were informed that they had decided to use
the existing New York State Police’s contract as a way to avoid the
significant delays that would come with going through their local
procurement process to execute their own contract. The DCJS’s no-suspect
grant point-of-contact, the Director of the Office of Forensic & Victim
Services stated that the DCJS’s goal was to expeditiously outsource the
no-suspect cases. Using the New York State Police’s contracts allowed the
OCME to avoid negotiating separate contracts of their own. However, both
the OCME and the DCJS management we talked to agreed with our
conclusions and stated that they would seek to remedy the situation with
both the contractor and the NIJ.




       33
           Questioned costs of $44,640 were calculated based upon multiplying the number
of “screening only” cases (48) by the estimated price for screening only of $250 per case,
and subtracting that from the price actually paid (48 x $1,180), with the remainder being
the portion that we have questioned. This price was provided to us as the upper range of
prices typically quoted to forensic casework contract clients by the Executive Director of
Orchid Cellmark (Maryland).




                                         – 50 –
Recommendations

      We issued separate audit reports to OJP, containing a total of 13
recommendations, for each of the four grantees audited.34 Because OJP is
working with these grantees in responding to our audit findings, we will not
provide additional recommendations to address these audit findings in this
report. However, for the one issue in Nassau County that was not previously
reported, we recommend that OJP:

19.   Ensure that the New York State DCJS remedies questioned costs of
      $44,640 for the Nassau County Police Department cases for which the
      contractor laboratory was paid for complete analysis but only
      screening was performed.




      34
           See Appendix I for specific information regarding these separately issued reports.



                                           – 51 –
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS


      As required by Government Auditing Standards, we tested OJP records
and grant documents pertaining to the Program to obtain reasonable
assurance about OJP’s compliance with laws and regulations, that, if not
complied with, we believe could have a material effect on the administration
of the Program. Compliance with laws and regulations applicable to
qualifying Program applicants for grant eligibility and to the administration of
the Program grants is the responsibility of OJP management. An audit
includes examining, on a test basis, evidence about compliance with laws
and regulations. The pertinent legislation and the applicable regulations it
contains are as follows:

DNA Identification Act of 1994

   •   Authorized the establishment of a national index of: 1) DNA
       identification records of persons convicted of crimes,
       2) analyses of DNA samples recovered from crime scenes, and
       3) analyses of DNA samples recovered from unidentified human
       remains;

   •   Specified several standards for those laboratories that contribute
       profiles to the national index system, including proficiency testing
       requirements for DNA analysts and privacy protection standards
       related to the information in the national index system;

   •   Established criminal penalties for individuals who knowingly violate the
       privacy protection standards, and provided that access to the national
       index system was subject to cancellation if the quality control and
       privacy requirements were not met; and

   •   Limited the use of grant funds to carrying out all or a substantial part
       of a program or project intended to develop or improve the capability
       to analyze DNA in a forensic laboratory.




                                     – 52 –
DNA Analysis Backlog Elimination Act of 2000

       This Act provides for grants to be made to states to carry out, for
inclusion in CODIS, DNA analyses of samples taken from individuals
convicted of qualifying state offenses or from samples taken from crime
scenes. The Act also authorizes grants used to increase the capacity of
laboratories owned by a state or by units of local government within the
state to carry out DNA analyses of samples taken from crime scenes. This
Act was signed into law on December 19, 2000, and part of funding for the
Program for FY 2001 was included in a $35 million appropriation for
programs authorized under this Act.

                              ♦      ♦     ♦
     Our tests revealed that OJP complied with the above legislation.




                                  – 53 –
           STATEMENT ON MANAGEMENT CONTROLS


      In planning and performing our audit of the Program, we considered
OJP’s management controls for the purpose of determining our auditing
procedures. In addition, we evaluated the process used by OJP to award
grants under the Program and to monitor grantees. The evaluation of OJP
was not made for the purpose of providing assurance on the management
control structure as a whole; however, we noted certain matters that we
consider to be reportable conditions under generally accepted Government
Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the management
control structure that, in our judgment, could adversely affect OJP’s ability to
administer the Program grants. We noted deficiencies relating to OJP’s
monitoring and reporting of the Program’s performance measurements,
discussed in Finding No. 1. We also noted deficiencies concerning OJP’s
monitoring of grantee drawdowns and awarding of subsequent grants,
discussed in Finding Nos. 1 and 2. However, we did not consider these
deficiencies to be a result of systemic management control issues.

      Because we are not expressing an opinion on OJP’s management
control structure as a whole, this statement is intended solely for the
information and use of OJP in administering the Program.




                                    – 54 –
                                                                APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY


     The objectives of our audit were to evaluate the:

1.   administration and oversight of the Program by OJP;

2.   oversight of contractor laboratories by states receiving Program funds;

3.   allowability of costs charged to Program awards; and

4.   progress made toward the achievement of Program goals.

     We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were considered necessary to
accomplish the audit objectives.

      The audit generally covered the period from the award of the
Program’s first year grants from July 2002 to September 2002 through the
completion of audit fieldwork in May 2004.

       Audit work was conducted at the NIJ and at the four states receiving
the largest awards that had, or were expected to have, drawdowns in excess
of $500,000 at the time of our fieldwork. Within each grantee state, we
visited the primary OJP grantee and other co-grantees that were selected
based on: 1) the contractor laboratory they used for outsourcing and
2) whether we had audited the agency in the past. In addition, we visited
four contractor laboratories from three different companies. These
laboratories were selected based on the amount of funding they received
from the Program.

      We conducted onsite work at the NIJ on two separate occasions.
During our first visit in November 2003, we conducted initial analysis on the
Program and its grantees, including grantees’ intended use of funds and OJP
administration activities. During our second visit in May 2004, we attended
a DNA Summit organized by the NIJ to inform and communicate with
representatives of laboratories across the country regarding the status and
future of the Program. In addition, we interviewed staff members at the NIJ
and reviewed the FY 2001 and FY 2003 award files for all grantees to obtain
information relating to the award process, to assess FY 2003 application
funding requests, and to obtain compliance and certification information.




                                   – 55 –
                                                                  APPENDIX I

       The following is a list of the four grantees that were audited:

  •    Ohio Bureau of Criminal Identification and Investigation, London, Ohio
       (completed during the survey phase of the audit)

  •    Texas Department of Public Safety, Austin, Texas

  •    Florida Department of Law Enforcement, Tallahassee, Florida

  •    New York State Division of Criminal Justice Services, Albany, New York

       Each of the above states had several co-grantees, for which we also
collected and reviewed documentation, as follows:

Ohio

  •    Ohio Bureau of Criminal Identification and Investigation Laboratories in
       London, Bowling Green, and Richfield

  •    Canton-Stark County Crime Laboratory

  •    Cleveland Police Department Forensic Laboratory

  •    Columbus Police Department Crime Laboratory

  •    Cuyahoga County Coroner’s Office

  •    Hamilton County Coroner’s Office

  •    Lake County Regional Crime Laboratory

  •    Mansfield Police Department Crime Laboratory

  •    Miami Valley Regional Crime Laboratory

Texas

  •    Texas Department of Public Safety Laboratories in Austin, Corpus
       Christi, Garland, Waco, Houston, Macallen, Lubbock, and El Paso

  •    Harris County Medical Examiner

  •    Houston Police Department


                                     – 56 –
                                                                APPENDIX I



  •   Southwestern Institute of Forensic Sciences

  •   Tarrant County Medical Examiner

Florida

  •   Florida Department of Law Enforcement Laboratories in Tallahassee,
      Jacksonville, Pensacola, Orlando, and Tampa

  •   Miami-Dade Police Department

  •   Broward County Sheriff’s Office

  •   Indian River Crime Laboratory

New York

  •   Erie County Department of Central Police Services Forensic Laboratory

  •   New York City Office of the Chief Medical Examiner

  •   New York City Police Department

  •   Onondaga County Center for Forensic Sciences

  •   Suffolk County Crime Laboratory

  •   Westchester County Department of Laboratories and Research
      Forensic Science Laboratory

  •   Niagara County Sheriff’s Department Forensic Laboratory

     The information collected and reviewed for each of these agencies was
dependent upon whether the co-grantee conducted the analysis of
no-suspect casework in-house or via outsourcing. To assess their
compliance with the Program Solicitation and relevant sections of the QAS,
we performed the following procedures:

  •   For those co-grantees that outsourced, we collected and reviewed
      documentation of site visits to contractor laboratories, outsourcing
      contracts, evidence handling and chain-of-custody protocols and
      procedures, data review policies and procedures, contractor laboratory


                                   – 57 –
                                                                 APPENDIX I

      QAS documentation and accreditation information, and CODIS
      Specimen ID reports.

  •   For those co-grantees that conducted analysis in-house, we collected
      and reviewed the prior two external and internal QAS audit reports,
      accreditation information, Technical Leader information, analytical
      standard operating procedures, productivity statistics for 2001, 2002,
      and 2003, and CODIS Specimen ID reports.

      In addition, we physically visited the following co-grantees:

  •   Fort Worth Police Department, Fort Worth, Texas

  •   Florida Department of Law Enforcement, Regional Operations Center
      Laboratory in Jacksonville, Florida; and Palm Beach County Sheriff’s
      Office in Palm Beach, Florida

  •   New York State Police Forensic Investigation Center in Albany, New
      York; Monroe County Public Safety Laboratory in Rochester, New York;
      and Nassau County Police Department Forensic Evidence Bureau and
      Nassau County Office of the Chief Medical Examiner in Plainview, New
      York

      For each of these co-grantees, we assessed their compliance with the
Program Solicitation and relevant sections of the QAS pertaining to evidence
handling and chain-of-custody, using the following procedures:

  •   Toured the laboratory facilities, to physically verify each grantee
      laboratory’s adherence to its own policies regarding chain-of-custody
      and evidence handling, as well as to observe compliance with various
      QAS issues.

  •   Interviewed officials and reviewed documentation to ensure each
      co-grantee’s compliance with Program requirements relating to the
      oversight of their contractor laboratories.

  •   Reviewed a judgmentally selected sample of case files to ensure that
      adequate documentation was present relating to the maintenance of
      chain-of-custody, proper evidence handling, the DNA analysis process,
      and reviews of the file documentation. In addition, we reviewed the
      case files to assess the timeframe for the analysis, review, and upload
      of profiles into CODIS.



                                    – 58 –
                                                                   APPENDIX I

   •   Interviewed grantee officials to obtain an understanding of the billing
       process and procedures used to ensure that grantees were only paying
       for analysis actually performed.

   •   Reviewed the internal and external QAS audits for the prior two years
       to identify any control weaknesses or significant noncompliance issues
       with the QAS, and to ensure that timely corrective actions were taken
       for any material findings.

      In addition, for all grantees and co-grantees, we compared reports
generated at each laboratory of cases analyzed with Program funds to
CODIS Specimen ID Reports in order to determine whether profiles were
being uploaded on a timely basis, or to determine the reasons for profiles
not being uploaded.

      We also examined procedures at the following four contractor
laboratories:

   •   Orchid Cellmark, Germantown, Maryland; and Dallas, Texas

   •   The Bode Technology Group, Inc., Springfield, Virginia

   •   Laboratory Corporation of America, Research Triangle Park, North
       Carolina

      At these laboratories, we verified compliance with relevant sections of
the QAS pertaining to chain-of-custody and evidence handling, and ensured
that they complied with grantee requirements, using the following
procedures:

   •   Toured the laboratory facilities, where applicable, to physically verify
       each grantee laboratory’s adherence to its own policies regarding
       chain-of-custody and evidence handling, as well as to observe
       compliance with various QAS issues.

   •   Reviewed a judgmentally selected sample of case files (same cases as
       were selected at the grantees and co-grantees) to ensure that
       adequate documentation was present relating to the maintenance of
       chain-of-custody, proper evidence handling, the DNA analysis process,
       and reviews of the file documentation.

   •   Reviewed the internal and external QAS audits for the prior two years
       to identify any control weaknesses or significant non-compliance issues


                                     – 59 –
                                                               APPENDIX I

      with the QAS, and to ensure that timely corrective actions were taken
      for any material findings.

  •   Interviewed grantee officials to obtain an understanding of the billing
      process and procedures used to ensure that grantees were only paying
      for analyses actually performed.

  •   Interviewed laboratory officials and reviewed documentation to ensure
      compliance with any specific requirements of each individual grantee
      laboratory.

      In addition to the above audit steps, individual audits were conducted
on each of the four primary NIJ grantees selected for review. Separate audit
reports were issued to OJP for each of these audits, as follows:

  •   The Ohio Bureau of Criminal Identification and Investigation, London,
      Ohio, Audit Report No. GR-60-04-005, issued March 2004;

  •   The Texas Department of Public Safety, Austin, Texas, Audit Report
      No. GR-80-04-008, issued September 2004;

  •   The New York State Division of Criminal Justice Services, Albany, New
      York, Audit Report No. GR-70-04-008, issued September 2004; and

  •   The Florida Department of Law Enforcement, Tallahassee, Florida,
      Audit Report No. GR-40-04-009, issued September 2004.

       For each of these grantees, OIG Audit Division staff assessed the
grantee’s compliance with key elements of the Program Solicitation and with
relevant sections of the OJP Financial Guide. The procedures used were not
significantly different from those commonly used by the OIG Audit Division
for general grant audits. The audit steps were modified to be more specific
to the Program by including steps to assess the grantee’s monitoring of
contractor laboratories, and provided more specific information on allowable
and unallowable uses of Program funds. The assist audit teams tested
compliance with what we considered to be the most important conditions of
the awards, and performed the following procedures:

  •   Tested compliance and reviewed documentation for Program activities
      in the following areas: drawdowns, budget management and control,
      award expenditures, financial status and progress reporting,
      compliance with regulations, and monitoring of co-grantees.



                                   – 60 –
                                                             APPENDIX I

•   Reviewed the most recent Single Audit Report to identify control
    weaknesses and significant non-compliance issues related to the
    grantee or to Federal programs in general.

•   Performed limited testing of source documents to assess the accuracy
    of reimbursement requests and financial status reports; however, we
    did not test the reliability of the financial management system as a
    whole.

•   Reviewed source documents for a judgmentally selected sample of
    expenditures to ensure they were allowable and properly supported.




                                 – 61 –
                                                               APPENDIX II


             GLOSSARY OF TERMS AND ACRONYMS


ASCLD/LAB: the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board is one of the organizations that
provides accreditation for labs. The organization performs a thorough
inspection of the laboratory before it grants accreditation.

Buccal Sample: a sample that is taken by brushing a swab or Q-tip against
the inside of a person's cheek, so as to obtain cells that can be DNA typed.

Buccal Swab: a swab designed for the collection of a buccal sample.

CODIS Administrator: the person at each laboratory that is responsible
for the administration and security of the laboratory’s CODIS. The position
can also be referred to as CODIS Manager or CODIS Custodian. The CODIS
Administrator is required by the QAS for each laboratory with a convicted
offender database, although all CODIS labs should have someone filling that
role.

Combined DNA Index System (CODIS): provides a framework for
storing, maintaining, tracking, and searching DNA specimen information.
CODIS refers to the entire system of DNA databases (convicted offender
database, forensic database, victim database, etc.) maintained at the
national, state, and local levels. CODIS currently consists of three distinct
levels: the National DNA Index System, State DNA Index System, and Local
DNA Index System.

DCJS: the New York State Division of Criminal Justice Services, the primary
grantee for the Program award to New York, is located in Albany, New York.

DeoxyriboNucleic Acid (DNA): DNA is found in almost all living cells, and
carries the encoded information necessary for building and maintaining life.
This encoded information is what makes each person an individual. Human
DNA consists of two strands of molecules that wrap around each other to
resemble a twisted ladder whose sides are connected by rungs of chemicals
called bases. There are four kinds of these chemical bases, and the order in
which they are arranged is called the DNA sequence. It is this unique
sequence that is determined when a DNA sample is analyzed.

DNA Analysis: the generation of a DNA profile in accordance with national
standards and validated methods.



                                   – 62 –
                                                                APPENDIX II

DNA Profile: a set of DNA identification characteristics, i.e., the particular
chemicals at the various DNA locations (loci), which permit the DNA of one
person to be distinguishable from that of another person.

DNA Sample: a body tissue or fluid sample (blood, a buccal sample, or
semen, for example) that can be subjected to DNA analysis.

Examiner (Analyst): an individual who conducts or directs the analysis of
forensic casework samples, interprets data, and reaches conclusions. In
other words, the analyst is the person performing the bulk of the DNA
analysis work. The analyst’s qualifications are governed by specific
requirements as given in the QAS.

FDLE: the Florida Department of Law Enforcement, the primary grantee of
the Program award to Florida, is located in Tallahassee, Florida. FDLE also
has regional locations throughout the state, with the Tallahassee location
serving as the FDLE Headquarters.

FWPD: the Fort Worth Police Department, a co-grantee of the Program
award to the Texas Department of Public Safety.

GAO: the Government Accountability Office, evaluates federal programs,
audits federal expenditures, issues legal opinions, and advises Congress and
the heads of executive agencies about ways to make government more
effective and responsive.

Hit: a confirmed match between two or more DNA profiles discovered by
CODIS software at a single instant in time. In other words, a hit is a match
between two or more profiles that the software finds when profiles are
searched against each other. A hit can occur when an offender sample is
matched to a sample from case evidence (forensic sample), when a forensic
sample is matched against a forensic sample from another case, or a
combination of these two.

In-house: any portion of processing and/or DNA analysis of cases or
samples that occurs within the grantee’s state by a state or local agency.

Investigations Aided: the primary measuring unit that the FBI uses to
quantify the success of CODIS. An investigation is aided when a DNA match
through CODIS either identifies a potential suspect or links crimes together,
but only when the DNA match provides new information that would not have
been otherwise developed.



                                    – 63 –
                                                                 APPENDIX II

Loci: the plural form of locus.

Locus: a specific physical location on a chromosome. Analogous to an
address for a house.

National DNA Index System (NDIS): the FBI-maintained national
component to CODIS. NDIS contains DNA profiles uploaded from approved
SDIS laboratories.

NCPD: Nassau County Police Department Forensic Evidence Bureau in
Plainview, New York. A co-grantee of the Program award to the New York
State Division of Criminal Justice Services, Albany, New York.

NFSTC: the National Forensic Science Technology Center provides
certifications of compliance with the Quality Assurance Standards. The
certifications are not the same as laboratory accreditation but are still used
as an indication of compliance by various organizations.

QAS: refers to the Quality Assurance Standards issued by the FBI Director
upon the recommendation of the DNA Advisory Board. Quality Assurance
refers to measures that are taken by labs to monitor, verify, and document
performance. Two sets of QAS exist: QAS for Convicted Offender DNA
Databasing Laboratories, effective April 1, 1999; and QAS for Forensic DNA
Testing Laboratories, effective October 1, 1998.

OCME: Nassau County Office of the Chief Medical Examiner in Plainview,
New York, is a co-grantee of the Program award to the DCJS.

Ohio BCI&I: the Ohio Bureau of Criminal Identification and Investigation,
the primary grantee of the Program award to Ohio.

Outsourcing: processing and/or DNA analysis that takes place by an
accredited or certified state or local laboratory outside of the grantee’s state
as a contractual agreement between the grantee and the other public
laboratory, or by a certified or accredited private (contractor) laboratory.

Screening: To screen a case requires a laboratory to determine, through
visual inspection and/or preliminary tests, which case samples are most
likely to yield sufficient DNA for successful analysis. Screening the cases
prior to sending them to a contractor laboratory generally means that there
will be a greater level of success during analysis in obtaining a DNA profile
from each sample.



                                     – 64 –
                                                               APPENDIX II

SDIS: State DNA Index System containing the state-level DNA records
uploaded from local laboratory sites within the state. SDIS is the state’s
repository of DNA identification records and is under the control of state
authorities. The SDIS laboratory serves as the central point of contact for
access to NDIS.

TXDPS: the Texas Department of Public Safety, the primary grantee of the
Program award to Texas. The TXDPS has laboratories across the state, with
the headquarters offices located in Austin, Texas.




                                   – 65 –
                                                                APPENDIX III


                            AUDIT CRITERIA


Federal Legislation

       CODIS was first described and authorized in the DNA Identification Act
of 1994 (Act). The Act, part of the Violent Crime Control and Law
Enforcement Act of 1994, authorized the FBI to establish and maintain
CODIS. That authorization limited records in CODIS to those that are:
based upon analyses meeting the FBI’s QAS, prepared by labs undergoing
external proficiency testing every 180 days, and maintained by criminal
justice agencies that limit the disclosure of the information to approved
groups. Access to the national CODIS database is subject to cancellation if
these requirements are not met and penalties of up to $100,000 can be
assessed for unauthorized disclosure or receipt of DNA samples/information.
Each Program grantee signs a Statutory Assurance Certification, stating that
they will comply with the provisions of the Act, which in turn means that
they must require their contractors to comply with the Act, since the
contractors are doing the actual DNA analysis work.

      The Act also established the DNA Advisory Board (DAB), an entity that
was to compose standards for quality assurance with which
CODIS-participating laboratories would have to comply and which the
Director of the FBI could then formally institute. The DAB produced one of
the key sources of our audit criteria, as described below.


Quality Assurance Standards

       The QAS, recommended by the DNA Advisory Board and formally
instituted by the Director of the FBI, are one of the key sources of criteria for
an audit of a CODIS-participating laboratory. Two sets of standards have
been instituted: the Quality Assurance Standards for Forensic DNA Testing
Laboratories effective October 1, 1998; and the Quality Assurance Standards
for Convicted Offender DNA Databasing Laboratories effective April 1, 1999.

     Our audits of grantee and contractor laboratories included a review of
compliance with various sections of the Forensic QAS, since it is that set of
QAS that addresses casework analysis, applicable to the processing of

no-suspect cases. Further, while the Forensic QAS contain 155 elements
organized under 15 headings, our audits focused primarily on 3 of those
headings, as follows:


                                     – 66 –
                                                               APPENDIX III

  •   Facilities: the physical design of the laboratory and additional controls
      should ensure the integrity of laboratory security and minimize
      contamination. This section contains five elements.

  •   Evidence Control: the laboratory should have a documented control
      system, and the necessary internal controls to implement it, to ensure
      the integrity of the evidence and to govern the final disposition of the
      evidence. This section contains seven elements.

  •   Subcontractor of Analytical Testing for Which Validated Procedures
      Exist: a laboratory making use of a subcontractor for any part of the
      DNA analysis process should establish certain specified controls to
      ensure the integrity of the subcontractor’s work and results. This
      section contains two elements.

      In addition, the FBI has developed an audit document to assist DNA
community auditors in assessing a laboratory’s compliance with the QAS.
This audit document provided comment and discussion on various QAS and
served as a source of additional guidance.


Solicitation Requirements

      The Program Solicitation issued by OJP serves as another source of
audit criteria for our audits of the four state grantees and their
co-grantees. Per the Program Solicitation, grantees were required to ensure
that all analysis of no-suspect cases under the Program complied with the
QAS, and that any profiles resulting from that analysis be expeditiously
uploaded to CODIS. Further, the grantees were to ensure that their
contracting Laboratories:

  •   are accredited by the ASCLD/LAB, or certified by the NFSTC;

  •   adhere to the most current QAS issued by the FBI Director, including
      the use of proper quality assurance standards (controls);

  •   have a Technical Leader located onsite at the laboratory;

  •   provide quality data able to be easily reviewed and uploaded to
      CODIS;




                                    – 67 –
                                                                 APPENDIX III

   •   have the appropriate resources to screen evidence to maximize
       analytical results (if applicable to the work contracted); and

   •   are paid only for work that is actually performed. The Solicitation
       further explains that the compensation given to the outsourcing
       laboratory should be fair, and directly reflect the effort and cost put
       forth by the laboratory in processing the case/sample.

      In addition, the Program Solicitation stipulated allowable and
unallowable uses of grant funds:

   •   Funds may be used for overtime and/or other compensation for
       existing staff and for laboratory equipment and supplies needed for
       processing no-suspect cases, for contractor-provided services to
       perform various steps in the processing and/or analysis of
       cases/samples, and for travel to outsourcing laboratory for review of
       laboratory procedures and practices.

   •   Funds may not be used for the replacement of funds already available
       to the states for processing no-suspect cases (supplanting), for hiring
       new staff or salaries for existing staff beyond the overtime or other
       compensation outlined above, and for overhead or administrative
       costs. The state must demonstrate that funds were spent on expenses
       directly associated with processing no-suspect casework. Indirect and
       administrative costs were unallowable under this Program.


OJP Financial Guide

       The OJP Financial Guide (Guide) serves as an additional source of audit
criteria for our audits of the four state grantees. The Guide places various
requirements on every grant issued by OJP. The following are some of the
significant requirements:

   •   Accurate and timely Financial Status Reports and Progress Reports
       must be submitted quarterly and semi-annually, respectively, to OJP.

   •   Changes to the grantees’ budget in excess of 10 percent of the total
       award, or changes to the scope of the project must be submitted to
       OJP for approval.




                                     – 68 –
                                                         APPENDIX III

•   Grantees should time their drawdown requests to ensure that federal
    cash on hand is the minimum needed for disbursements to be made
    immediately or within a few days.




                                – 69 –
         APPENDIX IV




– 70 –
– 71 –
– 72 –
– 73 –
– 74 –
– 75 –
– 76 –
– 77 –
                                                                 APPENDIX V


              OFFICE OF THE INSPECTOR GENERAL
                       AUDIT DIVISION
             ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE REPORT

       The OJP response to the draft audit report appears in Appendix IV.
In its response, OJP generally agreed with all 19 of our recommendations
and described the corrective actions it has taken or intends to take with
regard to the recommendations. Prior to presenting the status of each
recommendation and the actions necessary for closure, however, we
address several statements that OJP made in its response.

       First, the OJP response referenced the “President’s DNA Initiative”
(DNA Initiative), announced in March 2003, and asserted that the grant
program that we audited was discontinued in favor of the DNA Initiative.
This statement is incorrect. The 2004 grant program closely follows the
requirements of prior year Forensic Casework Backlog Reduction Programs
and our findings and recommendations are relevant for the 2004 program as
well. In addition, we believe it is misleading for OJP to state that the current
Administration and Congress discontinued the Forensic Casework DNA
Backlog Reduction Program in favor of the DNA Initiative. Under the DNA
Initiative, the funding source for the Backlog Reduction Program has
changed, but the program has not been discontinued. In fact, DNA backlog
elimination is the most strongly funded purpose area contained in the DNA
Initiative. In our judgment, the priority given to reducing and eliminating
backlogs further emphasizes the significance of the OIG recommendations
contained in this report. Overall, the only apparent change to the grant
program resulting from the DNA initiative is the source of funding. Under
the DNA Initiative, administrative and program requirements are
substantially unchanged from prior years.

      Second, OJP’s response indicated that many of our audit
recommendations were already addressed in the DNA Initiative. While the
DNA Initiative contains broad provisions related to a variety of DNA-related
programs, including eliminating backlogs, strengthening crime laboratory
capacity, stimulating research and development, and providing training, the
DNA Initiative does not stipulate how those programs are to be managed,
which is the key to successful administration of any grant program. For this
reason, the DNA Initiative itself does not resolve or close any of our audit
findings or recommendations. For example, the DNA Initiative does not
address our recommendations relating to the development and
implementation of better performance measurements or increased


                                    – 78 –
                                                                  APPENDIX V

monitoring and oversight of grant drawdowns. In addition, many of our
recommendations pertain to the oversight of local grantee activities by the
state grantees. The DNA Initiative does not provide any guidance in this
area.

      The OJP’s response provided examples of changes made to the May
2004 solicitation that added special conditions to DNA grants awarded in
September 2004, which addressed some of our audit findings. We agree
that these changes, many of which were implemented in response to our
audit work, are positive steps taken by OJP. For example, the solicitation
allows for grants to be awarded directly to local laboratories, which should
shorten the time that it takes to utilize this funding. This change directly
addressed one of our audit recommendations.

       In its response, OJP also stated that the provisions in the “Justice for
All Act of 2004” should improve grantee performance. While this Act
provides funding authorization for many DNA-related programs, we still
believe that OJP’s administration of any funds awarded under this Act are
the most significant measure of whether grantee performance will improve.
The Act itself does not direct monitoring of grantee activities.

       In sum, while the new DNA Initiative and the Justice for All Act contain
many provisions related to DNA grant programs, the overall monitoring,
administration, and success of these and other DNA-related grant programs
are dependent upon the quality of activities conducted by OJP. Our
recommendations focus on OJP activities, and the passage of the DNA
Initiative and the Justice for All Act emphasize the importance of
implementing the changes we recommend in the way the DNA grants are
administered.

      The status of the individual recommendations is as follows:

1. Resolved. This recommendation can be closed when we receive OJP’s
   revised procedures for monitoring grantee drawdowns.

2. Resolved. This recommendation can be closed when we receive
   documentation that OJP is ensuring that Program-funded uploads are
   being performed on a timely basis.

3. Resolved. This recommendation can be closed when we receive:
   1) documentation that OJP has developed Program goals that support the
   achievement of the Program’s mission of increasing laboratory capacity,



                                     – 79 –
                                                                APPENDIX V

    and 2) documentation that OJP has implemented an appropriate system
    to track those goals.

 4. Resolved. This recommendation can be closed when we receive:
    1) documentation that OJP has developed and implemented performance
    measurements that allow the monitoring toward the achievement of the
    Program’s mission of increasing laboratory capacity, and
    2) documentation relating to the Grant Progress Assessment Program as
    it pertains to the oversight of those performance measurements.

 5. Resolved. This recommendation can be closed when we receive a copy
    of the implemented procedures for the review of drawdowns for current
    grants before awarding grantees additional funding.

 6. Resolved. This recommendation can be closed when we receive a copy
    of the implemented procedures for the de-obligation of funding for
    grantees that are not utilizing their grant funds in a timely manner.

 7. Resolved. This recommendation can be closed when we receive
    evidence that all laboratories participating in future programs must meet
    the same certification/accreditation requirements.

 8. Resolved. This recommendation can be closed when we receive
    evidence that future Solicitations emphasize that Program-funded profiles
    should be uploaded to NDIS.

 9. Resolved. This recommendation can be closed when we receive
    documentation that the new awards funded in 2004 require that eligible
    grant-funded profiles be uploaded to NDIS.

10. Resolved. This recommendation can be closed when we receive
    documentation that the FDLE, Investigative and Forensic Science
    Services, Tallahassee, has implemented a policy to ensure that
    participating locations receive current contractor oversight
    documentation.

11. Resolved. This recommendation can be closed when we receive
    documentation that the FDLE, Jacksonville Regional Operations Center,
    has approved and implemented a comprehensive policy that contains
    current procedures in use for the outsourcing of no-suspect casework
    evidence.

12. Closed.


                                    – 80 –
                                                                 APPENDIX V



13. Resolved. This recommendation can be closed when we receive
    documentation that the Fort Worth Police Department is maintaining
    records to substantiate their vendor's on-going compliance with the QAS.

14. Resolved. This recommendation can be closed when we receive
    documentation that the Houston Police Department has completed and
    documented an onsite visit to their contractor laboratory sufficient to
    meet the requirements of the QAS.

15. Resolved. This recommendation can be closed when we receive
    documentation that the Houston Police Department has approved and
    implemented a comprehensive policy that contains current procedures in
    use for the outsourcing of no-suspect casework evidence.

16. Resolved. This recommendation can be closed when we receive
    documentation that Orchid Cellmark in Dallas, Texas, has implemented a
    policy for the cleaning of the pass-through that exists between the
    pre-amplification and post-amplification areas.

17. Resolved. This recommendation can be closed when we receive
    documentation that the Nassau County Police Department has approved
    and implemented a comprehensive policy that contains current
    procedures in use for the outsourcing of no-suspect casework evidence.

18. Resolved. This recommendation can be closed when we receive
    documentation that Orchid Cellmark in Germantown, Maryland, has
    implemented a policy requiring that evidence, after being received and
    logged in by the receptionist, is immediately placed in a limited access or
    secure area while awaiting the attention of technical personnel.

19. Resolved. This recommendation can be closed when we receive
    evidence that $44,640 in questioned costs for the New York State DCJS
    has been remedied.




                                     – 81 –
